<html>
<title> - DEFENDING THE HOMELAND FROM BIOTERRORISM: ARE WE PREPARED?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
       DEFENDING THE HOMELAND FROM BIOTERRORISM: ARE WE PREPARED?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2019

                               __________

                           Serial No. 116-42

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        

                              __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE 
 40-458 PDF             WASHINGTON : 2020                                
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     9
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    10

                               Witnesses

Ms. Asha M. George, Dr. Ph., Executive Director, Bipartisan 
  Commission on Biodefense:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Ms. Jennifer L. Rakeman, Assistant Commissioner and Director, 
  Public Health Laboratory, Department of Health and Mental 
  Hygiene, New York, New York:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Dr. Umair A. Shah, M.D., M. Ph., Executive Director, Public 
  Health, Harris County, Texas:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                             For the Record

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Statement of Roger L. Parrino, Sr..............................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter From the City of Houston................................    44

                                Appendix

Questions From Chairman Donald M. Payne, Jr. for Asha M. George..    47
Questions From Honorable James R. Langevin for Asha M. George....    48
Questions From Honorable Lauren Underwood for Asha M. George.....    49
Questions From Chairman Donald M. Payne, Jr. for Jennifer L. 
  Rakeman........................................................    50
Questions From Honorable Lauren Underwood for Jennifer L. Rakeman    52
Questions From Honorable Donald M. Payne, Jr. for Umair A. Shah..    53
Questions From Honorable Lauren Underwood for Umair A. Shah......    54


       DEFENDING THE HOMELAND FROM BIOTERRORISM: ARE WE PREPARED?

                              ----------                              


                       Thursday, October 17, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 310, Cannon House Office Building, Hon. Donald M. Payne, 
Jr. (Chairman of the subcommittee) presiding.
    Present: Representatives Payne, Rose, Underwood, Green, 
King, Crenshaw, and Guest.
    Also present: Representatives Langevin and Jackson Lee.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    Before we start discussing today's subject matter, I would 
like to take a moment to acknowledge the passing of Congressman 
Elijah Cummings. Mr. Cummings was a mentor to me on my arrival 
here in Congress, as this gentleman next to me was. It is a 
very emotional day for quite a few of us. Elijah Cummings was 
truly a diplomat and a statesman. Irrespective of what side of 
the aisle you sat, he had respect for you. He went through a 
lengthy illness. I had an opportunity to speak to him on many 
evenings and occasions because we had some of the same health 
issues.
    But this country has lost a great leader today, and I would 
ask if we give a moment of silence in his honor.
    [Moment of silence.]
    Mr. Payne.
    Thank you. I yield to the Ranking Member, Mr. King, for any 
statement he would like to make.
    Mr. King. Thank you, Mr. Chairman.
    I want to join with you in mourning the loss of Elijah 
Cummings. He was a true gentleman, a very distinguished person 
to work with. Again, he somehow managed to transcend the 
politics that too often drags us all down.
    So, again, it is a great loss to the country, great loss to 
the House of Representatives, and I think all of us are proud 
to say that we served with him.
    I yield back.
    Mr. Payne. Thank you. The subcommittee is meeting today to 
receive testimony on ``Defending the Homeland from 
Bioterrorism: Are We Prepared?''
    Good morning. I want to thank all of you for coming to 
today's hearing about the state of bioterrorism preparedness in 
the United States. I also want to thank the witnesses for 
testifying on this important topic.
    Bioterrorism represents a real and persistent threat to 
this Nation. Biological weapons are relatively inexpensive, 
simple to deliver, and can cause mass casualties. Gram for 
gram, they are among the deadliest weapons created by humans. 
Even with a small quantity of biological weapons, a terrorist 
can cause massive harm to our society.
    The Department of Homeland Security's Countering Weapons of 
Mass Destruction Office has an important role in strengthening 
the Nation's ability to prevent terrorists from using such 
weapons of mass destruction.
    Formed nearly 2 years ago, the Countering Weapons of Mass 
Destruction Office, or CWMD, is the focal point for the 
Department's efforts to counter WMD threats.
    CWMD was created to centralize and streamline DHS's 
countering weapons of mass destruction programs into a single 
office that could enhance our defenses, share best practices, 
leverage shared resources, and unify command.
    However, there have been several recent reports that raise 
concerns about CWMD. Even before these reports, our committee 
had concerns about the creation of the office. We were 
concerned that the reorganization would hurt employee morale, 
shortchange biological defense programs, and impact DHS's 
ability to carry out its important countering WMD terrorism 
mission.
    Recently, issues were raised about the technology behind 
CWMD's new biodetection system as well as with cuts being made 
to several WMD counterterrorism programs. In 2018, the Federal 
Employment Morale Viewpoint survey ranked CWMD as the lowest-
scoring office in the Federal Government. Previously, the 
office had been ranked in the top 20 percent of the Federal 
Government in terms of morale. Such a precipitous decline in 
the morale over the course of 2 years is an extremely 
concerning trend.
    Furthermore, the assistant secretary of CWMD Jim McDonnell, 
recently resigned, leaving CWMD without a permanent leader 
during this precarious time.
    I should also add that, just days ago, Acting Secretary 
Kevin McAleenan announced that he was resigning. DHS is 
suffering a serious leadership drought and undoubtedly 
complicates the Department's ability to execute its mission.
    That said, providing oversight to DHS is an important and 
timely function of this committee. We must assure that DHS is 
adequately executing its mission to protect Americans from 
weapons of mass destruction.
    Today, we will hear from witnesses who are on the front 
line of keeping the Nation safe from bioterrorists. We will 
hear their perspectives on the threat posed by bioterrorists, 
the state of National bioterrorism preparedness, and what DHS 
can do better to protect this Nation from bioterrorists. This 
is an important topic, and we need to make sure that we are 
doing all we can to protect our Nation from the threat of 
bioterrorism.
    I would like again to thank the witnesses for participating 
in today's hearing. I look forward to learning more about these 
topics and to hearing their testimony.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                            October 17, 2019
    I want to thank you all for coming to today's hearing about the 
state of bioterrorism preparedness in the United States. I also want to 
thank the witnesses for testifying on this important topic. 
Bioterrorism represents a real and persistent threat to this Nation. 
Biological weapons are relatively inexpensive, simple to deliver, and 
can cause mass casualties. Gram for gram, they are amongst the 
deadliest weapons created by humans. Even with a small quantity of 
biological weapons, a terrorist can cause massive harm to our society.
    The Department of Homeland Security's Countering Weapons of Mass 
Destruction Office has an important role in strengthening the Nation's 
ability to prevent terrorists from using such weapons of mass 
destruction. Formed nearly 2 years ago, the Countering Weapons of Mass 
Destruction Office (CWMD) is the focal point for the Department's 
efforts to counter WMD threats. CWMD was created to centralize and 
streamline DHS's countering weapons of mass destruction programs into a 
single office that could enhance our defenses, share best practices, 
leverage shared resources, and unify command. However, there have been 
several recent reports that raise concerns about CWMD. Even before 
these reports, our committee had concerns about the creation of the 
office. We were concerned that the reorganization would hurt employee 
morale, shortchange the biological defense programs, and impact DHS's 
ability to carry out its important countering WMD terrorism mission.
    Recently, issues were raised about the technology behind CWMD's new 
bio-detection system as well as with cuts being made to several WMD 
counterterrorism programs. In 2018 the Federal Employment Morale 
Viewpoint Survey ranked CWMD as the lowest-scoring office in the 
Federal Government. Previously, the office had been ranked in the top 
20 percent of the Federal Government in terms of morale. Such a 
precipitous decline in morale over the course of 2 years is an 
extremely concerning trend. Furthermore, the assistant secretary of 
CWMD--Jim McDonnell--recently resigned, leaving CWMD without a 
permanent leader during this precarious time.
    I should also add that just days ago Acting Secretary Kevin 
McAleenan announced that he was resigning. DHS is suffering a serious 
leadership drought that undoubtedly complicates the Department's 
ability to execute its mission. That said, providing oversight to DHS 
is an important and timely function of this committee. We must ensure 
that DHS is adequately executing its mission to protection Americans 
from weapons of mass destruction. Today, we will hear from witnesses 
who are on the front line of keeping this Nation safe from 
bioterrorists. We will hear their perspectives on the threat posed by 
bioterrorists, the state of National bioterrorism preparedness, and 
what DHS can do to better protect this Nation from bioterrorists. This 
is an important topic and we need to make sure that we are doing all we 
can to protect our Nation from the threat of bioterrorism.

    Mr. Payne. With that, I now recognize the Ranking Member of 
the subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman.
    As you know, our districts are very close. In fact, we are 
basically one terror target, I would say. So, again, thank you 
for this hearing. It is very central. It is unfortunate that 
the witness for the Port Authority had to cancel at the last 
minute because it is literally the Port Authority that connects 
our States.
    Mr. Payne. Absolutely.
    Mr. King. So, anyway, with that, I will read part of my 
statement and ask that the entire statement be included in the 
record.
    Mr. Chairman, since the horrific attacks of September 11, 
the terrorist threat against the United States continues to 
grow and to evolve. In recent years, the desire to use 
nonconventional weapons has increased. Nation-states as well as 
terrorists groups, including ISIS, have sought to employ not 
only chemical and nuclear materials into their attacks but have 
also shown growing interests in using biological warfare.
    The President's 2018 National Biodefense Strategy states 
that biological threats are, ``among the most serious threats 
facing the United States and the international community.'' Not 
only can biological weapons sicken, disable, and kill innocent 
people on a massive scale, they can also inflict tremendous 
economic and social disruption. For example, pathogens directed 
against crops to induce crop failure could significantly 
cripple our agricultural system.
    The Federal Government has recognized the need to enhance 
the Nation's abilities to counter against certain terrorist 
threats. Following 9/11, several programs were created to 
prevent terrorists from using weapons of mass destruction. The 
Department of Homeland Security's CWMD office was authorized in 
December 2018 to elevate and streamline these efforts.
    Unfortunately, recent reports have indicated that the CWMD 
office has significantly scaled back or eliminated the specific 
programs put in place to help protect the country. According to 
these reports, one eliminated practice included the work to 
update a formal, strategic, and integrated assessment of 
chemical, nuclear, and biological-related risks. This 
assessment provided guidance on the purchasing of detection-
related technologies and medications following an attack.
    The CWMD office has also been heavily criticized regarding 
the BioWatch program, a monitoring system that collects and 
tests air samples for biological agents likely to be used in a 
bioterrorism attack.
    From numerous false alarms and delayed notifications of 
lethal pathogens to a questionable roll-out of the second 
iteration of the program, Biodetection 21, BD21, it is clear 
that the CWMD office needs to do better. The bioterrorism 
threat is increasing and should be a priority.
    In 2015, I was the House sponsor of the First Responder 
Anthrax Preparedness Act, which requires DHS, in coordination 
with Health and Human Services, to carry out a pilot program to 
provide eligible anthrax vaccines from the strategic National 
stockpile to emergency first responders who may be at high risk 
of exposure to anthrax should an attack occur.
    While this is a step in improving WMD preparedness, there 
is a litany of threats beyond anthrax facing DHS and our State 
and local partners. It is imperative that our communities and 
first responders are well-positioned to detect, protect, and 
decontaminate biological warfare agents. As the sophistication 
of biological weaponry improves, we must be ready.
    I look forward to hearing from our witnesses today on their 
perspectives on the growing threat and how well we are 
positioned to thwart any attack.
    As I mentioned, Mr. Parrino, the director of preparedness 
for the Port Authority was supposed to be here today. He cannot 
attend, unfortunately. I would ask unanimous consent to insert 
his written statement into the record.
    [The statement of Mr. Parrino follows:]
                   Statement of Roger L. Parrino, Sr.
                            October 17, 2019
      introduction to the port authority of new york & new jersey
    The Port Authority conceives, builds, operates, and maintains 
infrastructure critical to the New York/New Jersey region's 
transportation and trade network. These facilities include America's 
busiest airport system, including: John F. Kennedy International, 
LaGuardia, and Newark Liberty International airports, marine terminals, 
and ports, the PATH rail transit system, 6 tunnels and bridges between 
New York and New Jersey, the Port Authority Bus Terminal in Manhattan, 
and the World Trade Center. For more than 90 years, the Port Authority 
has worked to improve the quality of life for the more than 18 million 
people who live and work in New York and New Jersey metropolitan 
region.
I. Port Authority Transportation Infrastructure
    The Port Authority builds, operates, and maintains critical 
transportation and trade assets that fall under our 5 lines of 
business:
    Aviation.--Our aviation assets include 5 airports: John F. Kennedy 
International Airport, LaGuardia Airport, Newark Liberty International 
Airport, Teterboro Airport and Stewart International Airport. The Port 
Authority airports move an estimated 125 million passengers annually.
    Rail.--Our rail and surface transportation assets include the: 
Trans-Hudson Rail System (PATH). We move an average of 282,000 
passengers each weekday.
    Tunnels, Bridges, and Terminals.--George Washington Bridge, Bayonne 
Bridge, Goethals Bridge, Outerbridge Crossing, the Port Authority Bus 
Terminal, George Washington Bridge Bus Station, Journal Square 
Transportation Center, Holland Tunnel, and Lincoln Tunnel. Over 115 
million vehicles travel over PA's bridges and Tunnels annually.
    Ports.--Port Authority also manages ports that transport vital 
cargo throughout the New York and New Jersey region. The Port of New 
York and New Jersey is the largest on the East Coast and the second-
largest port in the United States and moves over 3.6 million cargo 
containers annually.
    Commercial Real Estate.--The Port Authority also owns and manages 
the 16-acre World Trade Center (WTC) site, home to the iconic One World 
Trade Center.
II. Historic Terrorist Target
    The Port Authority has experienced multiple terrorist threats which 
reflect the ever-changing global terrorist threat--from large-scale, 
well-funded organized attacks to self-radicalized self-initiated lone 
actors. These acts are an ever-present reminder that we must always 
remain vigilant and continue to maintain a strong security posture.
    February 26, 1993, vehicle-borne improvised explosive device 
(VBIED) detonated below the North Tower of the Word Trade Center. The 
1,336 lb. (606 kg) urea-nitrate-hydrogen gas enhanced device killed 6 
people and injured over 1,000.
    June 1993, less than 4 months after the first World Trade Center 
bombing, the FBI infiltrated a terrorist group who were planning on 
attacking 6 well-known landmarks in Manhattan. Three of these landmarks 
were Port Authority infrastructure: The George Washington Bridge, the 
Lincoln Tunnel, and the Holland Tunnel. The planned attacks were to 
create chaos in transportation between New Jersey and Manhattan. They 
intended to drive VBIEDS into the tunnels, stall the cars in the 
middle, and detonate them. The plotters were arrested before the plan 
could be carried out.
    September 11, 2001, 2 planes were flown into the twin towers of the 
World Trade Center as part of a coordinated suicide attack including 
the Pentagon and possibly the White House. Almost 3,000 people were 
killed including 343 firefighters and 72 law enforcement officers, 37 
of which were members of the Port Authority Police Department.
    December 11, 2017, improvised explosive device (IED) pipe bomb 
partially detonated in a pedestrian tunnel the adjoining the Port 
Authority Bus Terminal in Manhattan, injuring 4 people including the 
suspect. This event occurred in a passageway roughly 100 feet from the 
Port Authority Bus Terminal, a building through which roughly 250,000 
commuters traverse daily. It was the courageous acts of our Port 
Authority police officers who subdued the suspect.
III. Multi-Layered Approach to Securing Assets and Protecting the 
        Public
    The Port Authority maintains security as a top priority as 
evidenced by the investments in resources it makes to that purpose. 
Currently, agency-wide, 28 percent of personnel and 22 percent of the 
operating budget are allocated to security. Additionally, since 2002, 
more than $1.5 billion dollars has been spent on capital security 
projects and another $700 million in capital security projects have 
been identified for the coming years.
    To protect the region's economic stability, the Port Authority's 
customers, the general public, employees, and critical infrastructure, 
the Office of the Chief Security Officer (OCSO) utilizes a robust 
multi-layered security approach which allows for the development, 
implementation, and management of programs that preserve life and 
property, increase safety and security, and support the Agency's 
business objectives by strengthening our resilience and continuity of 
operations. With these measures in place--there is no single point of 
failure. Our multi-layered approach is explained in detail below.
    Intelligence-Led.--The Port Authority Police Department (PAPD) 
implements intelligence-led policing to ensure our resources are 
effectively deployed to prevent potential threats to our customers, 
employees, and facilities. The PAPD has presence in 28 Federal, State, 
and local law enforcement task forces, to include: The Federal Bureau 
of Investigation Joint Terrorism Task Force (FBI JTTF) in New York and 
New Jersey; the New York and New Jersey High-Intensity Drug Trafficking 
Areas (HIDTA) taskforce and the New Jersey State Police Regional 
Operations Intelligence Center (ROIC) this allows for the immediate 
exchange of important, timely, and actionable intelligence for both 
sides of the Hudson.
    Additionally, we have a dedicated Intelligence Unit that is 
responsible for preparing and distributing intelligence bulletins 
related to transportation and security, producing daily reports 
specific to domestic and global transportation issues, and 
participating in the New York Police Department's Lower Manhattan 
Security Initiative, which is a key provider of day-to-day actionable 
intelligence relative to routine conditions like large events and 
demonstrations to current and emerging threats.
    These combined resources result in the agile, flexible, effective, 
and efficient deployment of security and law enforcement resources that 
are responsive to current and developing threats and conditions.
    Risk Assessments.--The protection of critical infrastructure is 
driven by all-hazards risk assessments which are performed on a regular 
basis to better understand changes in threats and vulnerabilities 
related to our facilities. Our periodic multi-hazard assessments look 
across all agency assets and prioritize our risk so we can guide our 
security investments accordingly. This risk-based approach allows for 
efficient and effective allocation of human assets and financial 
resources.
    Police Interdiction Activities.--The PAPD is comprised of over 
2,100 uniformed police officers operating across 13 Port Authority 
facilities. The department also includes a Criminal Investigations 
Bureau, Special Operations Division, which includes an Emergency 
Services Unit and a Canine Unit (K-9), and an Aircraft Rescue and 
Firefighting component at the Port Authority airports.
    Through visible uniformed police presence and in partnership with 
other law enforcement agencies, the PAPD suppresses crime and utilizes 
counterterrorism measures to thwart potential adversaries seeking to 
cause harm or disruption by way of an attack. PAPD also deploys high 
visibility patrols (THREAT Teams) and specialized services to enhance 
basic patrol functions utilizing intelligence-led policing concepts.
    Operational Security Measures and Security Agents.--The Port 
Authority implements civilian security programs to supplement our 
police department activities and increase the levels of protection at 
our facilities. These programs safeguard Port Authority facilities from 
threats to physical infrastructure, unauthorized access to restricted 
areas, cybersecurity attacks, and breaches of protected security 
information. The Port Authority employs over 1,400 unarmed Uniformed 
Contract Security Agents to guard our facilities and keep our employees 
and customers safe.
    Technology.--A critical element of a robust multi-layered approach 
is the development and maintenance of advanced technology systems to 
support both security and resiliency. Significant investments have been 
made in the areas of Closed-Circuit Television (CCTV), access control 
systems, and our perimeter intrusion detection system (PIDS). We are 
engaged with several Federal agencies to develop and pilot new and 
emerging technologies that show promise in addressing the security 
challenges of today.
    In addition, we have created a new cybersecurity program to better 
monitor and respond to suspicious activities occurring on our network, 
therefore strengthening our capability to protect our critical 
information and industrial control systems. The Port Authority operates 
a 24/7 cybersecurity operations center that can receive and respond to 
threats to our network and equipment.
    Engineered Hardening Solutions.--Since September 11, 2001, we have 
made over $1 billion in asset hardening investments. Although faced 
with the challenge of retrofitting security features into existing 
facilities, we have implemented a multitude of hardening solutions such 
as bollard placement, fencing installation, tunnel and guard post 
hardening, floating barriers, facade glazing, flood mitigation systems, 
and no trespassing signage. Prospectively, these protective measures 
are built into new developments or the renovations of existing assets.
    Office of Emergency Management.--The Port Authority enhances 
resiliency, response, and recovery through our Office of Emergency 
Management (OEM). The OEM champions programs that provide the Port 
Authority with the resources, support, and capabilities to prepare for, 
respond to, recover from, and mitigate against all-hazards. The OEM is 
organized into three core mission areas:
    Emergency Management.--Supports the Incident Command response 
        structure at Port Authority during events or incidents. 
        Additionally, responsible for all-hazard planning and training 
        for agency personnel and regional partners who will support our 
        response activities to emergencies at our facilities located in 
        New York and New Jersey. Through tabletop and full-scale 
        exercise, over 30,000 Port Authority staff and regional 
        partners have been trained on such topics as Active Shooter 
        response, PATH rail emergencies, terror attacks, and other 
        hazards.
    Grant Management.--Administers and manages all Federal and State 
        Homeland Security Grants that allows us to harden our assets, 
        invest in technology, initiate new programs, and provide for 
        enhanced police protective services. This funding source is 
        essential to help us in continuing the security mission.
    Grant programs including but not limited to the Transit Security 
        Grant Program (TSGP), Urban Area Security Initiative (UASI), 
        and the Port Security Grant Program have long supported Port 
        Authority security initiatives, including: Counter Terrorism 
        Initiative, Police Training and Equipment, WTC Transportation 
        Hub Security Initiatives, Cybersecurity Programs, Protection of 
        the PATH Under-River Tunnels, Protection of Columns at the Port 
        Authority Bus Terminal (PABT), Bollard Protection Initiatives, 
        Installations of CCTV and Access Control Systems at PATH, 
        Ports, and the PABT, Maritime Resilience Planning.
    Risk Management and Resiliency.--Responsible for coordinating and 
        implementing the agency-wide all-hazard risk assessment and 
        oversees the Port Authority Business Continuity program.
    These programs are regularly adapted to meet the needs of the Port 
Authority with an impact range that stretches from individual employee 
preparedness to agency-wide, corporate-level resiliency.
IV. Countering the Chemical, Biological, Radiological (CBR) Threat
    The Port Authority recognizes the unique nature of a potential CBR 
threat to our region and our critical transportation infrastructure.
    The Port Authority has worked with the Department of Homeland 
Security (DHS) and Department of Defense (DOD) on developing and 
testing some of the most advanced CBR detection and response equipment 
used throughout the world today. Additionally, the Port Authority has 
prioritized the acquisition of CBR detection and response equipment and 
ensure the most advanced levels of training for our police officers.
    The Port Authority also actively follows the procedural guidance 
and best practices established by the Secure the Cities Program and the 
National BioWatch program. These programs provide best practices 
related to CBR operational response, and also provide technical 
guidance for CBR equipment and operations for post-event response.
    Currently, the Port Authority provides a tiered response to 
radiological detections. We rely on assistance from our Federal 
partners and National laboratories for technical expertise--to confirm 
or adjudicate real-world detections of radiological material.
    Response assignments for biological events are coordinated through 
the New Jersey State and New York City Department of Health and Mental 
Hygiene through their respective public health laboratories.
    The Port Authority also participates in the National BioWatch which 
is an early warning defense program that seeks to prevent acts of bio-
terrorism by strategically placing Portable Sampling Units (PDUs) in 
pre-identified areas of high significance. We have several PDUs 
strategically placed throughout the Port Authority.
    Furthermore, PAPD Emergency Service Unit (ESU) members are trained 
as Hazardous Material Technicians; Commercial Vehicle Inspection Unit 
(CVI) police officers are trained as Decontamination Operators; and 
PAPD patrol members of the service are trained in Gross Decontamination 
operations.
V. Training and Exercising for Chemical, Biological, Radiological (CBR)
    The PAPD includes a cadre of highly-specialized members called the 
Emergency Service Unit (ESU). ESU members receive in-house training for 
HazMat certification. In addition to this baseline certification, 
members of the PAPD ESU through our partnerships with DHS-FEMA's 
National Domestic Preparedness Consortium, are trained in advanced 
response techniques via the following programs:
  <bullet> Louisiana State University--National Center for Biomedical 
        Research and Training (LSU-NCBRT) for Biological Response.
  <bullet> National Nuclear Security Administration for Radiological 
        Response.
  <bullet> Energetic Materials Research and Testing Center (EMRTC) at 
        New Mexico Tech for Explosive Response.
    The Port Authority also actively participates in Federal, State, 
and local exercises related to CBR scenarios; some examples include:
  <bullet> Radiological--Macro-level exercises for city-wide or 
        regional--Improvised Nuclear Devise attacks.
  <bullet> Radiological--Functional exercises on response to 
        radiological incidents on Port Authority facilities, that 
        includes multi-tiered response from local command, Special 
        Operations, through National reach back.
  <bullet> Biological--Biological Functional exercises on Port 
        Authority facilities.
  <bullet> CBR--Post-event technical decontamination training.
the importance of collaboration with our federal partners in countering 
          the chemical, biological, radiological (cbr) threat
    The Port Authority understands the importance of maintaining strong 
relationships with our Federal partners. The Port Authority has 
partnered with the DHS on several initiatives to study and analyze CBR 
threats to Port Authority facilities and infrastructure and determine 
the optimal placement of CBR detection sensors. Such programs/
initiatives include:
  <bullet> World Trade Center Complex Detection Optimization and 
        Analysis Project.--This project was completed in 2014. The 
        project included modeling studies and analysis conducted in 
        order to optimize the detection of chemical, biological, and 
        radiological (CBR) threat agents on the World Trade Center 
        (WTC) campus. This project was led by DHS--National Protection 
        and Programs Directorate (NPPD), Sandia National Lab, Argonne 
        National Lab, and Los Alamos National Lab.
  <bullet> Chemical Detection Program--Port Authority.--This is an on-
        going project in coordination with Federal partners to test and 
        install chemical detection technologies at Port Authority 
        facilities.
    <bullet> PATH--Supported by DHS Science & Technology (S&T).
    <bullet> PABT--Supported by DHS S&T, Transportation Security 
            Administration (TSA), Argonne National Lab.
    <bullet> WTC--Supported by DHS S&T and Argonne National Lab.
  <bullet> Chem/Bio Advanced Capabilities Test (CBACT).--This is an on-
        going project to further advance the study of chemical/
        biological dispersion in NYC metro area. The Port Authority 
        provides infrastructure to install test sensors.
  <bullet> BioDetection 21 (BD21).--This is an on-going project 
        conducted between the Port Authority and the National BD21 
        initiative to advance the next generation of biological threat 
        detection capability. We are also working with DHS-Countering 
        Weapons of Mass Destruction (CWMD) on performance 
        characteristics to include in this new capability.
  <bullet> Future CBR Program/Capability/Study.--The Port Authority is 
        working with the Defense Advanced Research Projects Agency 
        (DARPA) and DHS's CWMD on developing the next generation of 
        detection technologies for CBR threats called SIGMA plus. The 
        SIGMA plus program is a collaboration between our Federal 
        partners and the Port Authority to research and develop new and 
        emerging CBR detection technologies in a real-world environment 
        on some of the Nation's most critical transportation 
        infrastructure. This builds upon the foundations established 
        under the SIGMA program. One of the fundamental goals of SIGMA 
        plus is to recognize efficiencies in CBR detection architecture 
        and consolidate the detection of CBR threats into a unified 
        system. The technological development and lessons learned from 
        SIGMA plus can provide a new state-of-the-art CBR detection 
        suite for utilization by jurisdictions across the United 
        States.
    All of these partnerships are critical to information sharing 
regarding emerging security technologies and have led to the 
development and piloting of a variety of programs at Port Authority's 
vast array of multi-modal facilities. These research arms of the 
Federal Government need adequate funding to support the development and 
testing of future technologies which aim to increase the efficiency and 
effectiveness of detection devices, screening devices, and police 
personal safety devices.
    Furthermore, the ability for Federal entities to provide guidance 
and recommendations regarding CBR products will greatly aid agency 
decision makers in their selection of reliable and proven technologies 
and equipment that would best protect the our officers, our 
infrastructure and the traveling public.
                          vi. closing remarks
    The Port Authority operates the busiest and most important 
transportation infrastructure in the region, as such, we own the 
tremendous responsibility of policing and maintaining safety and 
security. The Port Authority will continue to enhance its security 
programs and systems to stay current and adapt to the ever-changing 
threat environment.
    I would like to thank the Members of the Subcommittee on Emergency 
Preparedness, Response, and Recovery of the House Committee on Homeland 
Security for inviting me to testify on behalf of the Port Authority of 
New York and New Jersey regarding ``Bioterrorism.''
    I would like to thank our Congressional delegation for their 
continuing support that allows us to better serve our employees, 
customers, the region, and better protect our critical transportation 
infrastructure.

    Mr. King. With that, I yield back.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                             Oct. 17, 2019
    Since the horrific attacks of September 11, 2001, the terrorist 
threat against the United States continues to grow and evolve. In 
recent years, the desire to use non-conventional weapons has increased. 
Nation-states, as well as terrorist groups such as ISIS, have sought to 
employ not only chemical and nuclear materials into their attacks, but 
have also shown growing interest in using biological warfare.
    In 2001, we witnessed first-hand the grim reality of bioweapon use 
when anthrax powder was delivered through the mail, ultimately killing 
5 people, sickening 17, and shutting down much of the Capitol Complex. 
In 2014, a laptop reportedly recovered from an ISIS hideout contained 
general information on the benefits of using biological weapons and 
included instructions on weaponizing the bubonic plague. Earlier this 
year, a couple in Germany who bought large quantities of ricin were 
charged with plotting Islamist-motivated attacks using a biological 
weapon. Additionally, many have speculated on North Korea's rapidly 
advancing biological weapons capabilities.
    The President's 2018 National Biodefense Strategy States that 
biological threats ``are among the most serious threats facing the 
United States and the international community.'' Not only can 
biological weapons sicken, disable, and kill innocent people on a 
massive scale, they can also inflict tremendous economic and social 
disruption. For example, fungal plant pathogens directed against crops 
to induce crop failure could significantly cripple our agricultural 
system.
    While advances in science bring faster cures, better medicines, and 
improved quality of life, they also bring new security risks. The rapid 
evolution of new biological techniques, like the gene editing process, 
CRISPR-Cas9, can pose significant threats if used by bad actors. A 2018 
ODNI threat assessment stated that biological technologies ``move 
easily in the globalized economy, as do personnel with the scientific 
expertise to design and use them for legitimate and illegitimate 
purposes.''
    The Federal Government has recognized the need to enhance the 
Nation's abilities to counter against certain terrorist threats. 
Following 9/11, several programs were created to prevent terrorism 
using weapons of mass destruction. The Department of Homeland 
Security's (DHS) Countering Weapons of Mass Destruction Office (CWMD) 
was authorized in December, 2018 to elevate and streamline these 
efforts. Unfortunately, recent media reports have indicated that the 
CWMD office has significantly scaled back or eliminated the specific 
programs put in place to help protect the country. According to 
reporting, one eliminated practice included work to update a formal, 
strategic, and integrated assessment of chemical, nuclear, and 
biological-related risks. This assessment provided guidance on the 
purchasing of detection-related technologies and medications following 
an attack.
    The CWMD office has also been heavily criticized regarding the 
BioWatch Program--a monitoring system that collects and tests air 
samples for biological agents likely to be used in a bioterrorism 
attack. From numerous false alarms and delayed notifications of lethal 
pathogens, to a questionable roll-out of the second iteration of the 
program, Biodetection 21 (BD21), it is clear that the CWMD office needs 
to do better. The bioterrorism threat is increasing and should be a 
priority.
    In 2015, I was the House sponsor of the First Responder Anthrax 
Preparedness Act, which requires DHS, in coordination with the 
Department of Health and Human Services, to carry out a pilot program 
to provide eligible anthrax vaccines from the Strategic National 
Stockpile to emergency first responders who may be at high risk of 
exposure to anthrax should an attack occur. While this is a good step 
in improving WMD preparedness, there are a litany of threats beyond 
anthrax facing DHS and our State and local partners.
    It is imperative that our communities and first responders are 
well-positioned to detect, protect, and decontaminate biological 
warfare agents. As the sophistication of biological weaponry improves, 
we must be ready. I look forward to hearing from our witnesses on their 
perspective on the growing threat and how well we are positioned to 
thwart any attack.
    Additionally, I ask unanimous consent to insert into the record 
written testimony from Mr. Roger Parrino, director of preparedness, 
intelligence, and inspections for the Office of the Chief Security 
Officer at the Port Authority of New York and New Jersey. Mr. Parrino 
was supposed to attend today's proceedings but was unfortunately called 
away at the last minute.

    Mr. Payne. Thank you, Mr. King. Reminder that other Members 
may submit a statement for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            October 17, 2019
    I would like to thank the Emergency Preparedness, Response, and 
Recovery Subcommittee for holding today's hearing. I want to also thank 
the witnesses for joining us to lend their expertise to this important 
discussion. Through the years, the Department of Homeland Security has 
consistently struggled with its biodetection capabilities. BioWatch, 
the Department's biological weapon detection system, was developed in 
the wake of the anthrax attack on 2 U.S. Senators that followed the 9/
11 attacks.
    Nefarious actors developing and using biological weapons on 
American citizens is a huge threat. That is why this committee has led 
significant oversight efforts of the Department's challenges with 
developing adequate biodetection capabilities, and I am pleased that 
this topic continues to be a priority for this subcommittee. Through 
our oversight, we have learned that BioWatch has not performed as it 
should. Specifically, the operation process of BioWatch is expensive, 
detection time is too long, and the system has difficulty 
distinguishing between normally-occurring biological agents and those 
used by terrorists.
    The criticism of BioWatch prompted the Department to develop 
Biodetection 21 (BD21), the biodetection apparatus that is intended to 
replace BioWatch. BD21 is expected to be deployed within the next few 
years, though it is still unclear as to whether it will address the 
biodetection capability gaps of its predecessor. We have also heard 
concerning reports that highlight the shortcomings of BD21's 
technology, like triggers may be less accurate, and handheld equipment 
used to investigate warnings prompted by the triggers are not mature 
enough to be operational. Further, the Department's Office of 
Countering Weapons of Mass Destruction (CWMD) has received criticism 
for its limited stakeholder outreach. Considering that State and local 
public health officials will be the first to respond in the event of a 
biological attack, it is troubling that they do not believe the CWMD 
Office has shared enough information on the BD21 technology before 
being asked to adopt the new system.
    Stakeholders have also indicated that because BD21 trigger 
prototypes are likely to have a much higher false positive rate than 
BioWatch, it is probable that the expense of the program will increase. 
Since 2013, the Department has attempted to reorganize its chemical, 
biological, radiological, and nuclear mission spaces, the latest of 
which established the CWMD Office in 2017. This office was intended to 
elevate the Department's efforts to counter weapons of mass 
destruction, but since its establishment there have been serious 
operational concerns like low morale and the lack of meaningful 
stakeholder engagement.
    These concerns were also highlighted in a 2016 Government 
Accountability Office report (GAO-16-603). I am interested to hear from 
the witnesses about the extent to which the Department engages with 
them on biodetection-related concerns associated with the CWMD 
reorganization. I also look forward to hearing from the witnesses on 
whether the CWMD reorganization has affected the Department's ability 
to carry out its biodetection mission. I am interested to hear from our 
witnesses about how this change will impact State and local biological 
preparedness.

    Mr. Payne. I want to welcome our panel of distinguished 
witnesses.
    Our first witness is Dr. Asha George, who is the executive 
director of the Bipartisan Commission on Biodefense. Dr. George 
is also a former staffer with the committee, and we are excited 
to see her here today. Welcome back.
    Next is Dr. Jennifer Rakeman. Dr. Rakeman is the assistant 
commissioner and laboratory director at the New York City 
Department of Health and Mental Hygiene. Welcome.
    Last, we have Dr. Umair Shah, who is the executive director 
of Harris County Public Health in Texas and the past president 
of the National Association of County and City Health 
Officials. Welcome.
    Thank you all for being here today. I look forward to 
hearing your testimonies on this important topic.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Dr. George.

   STATEMENT OF ASHA M. GEORGE, DR. PH., EXECUTIVE DIRECTOR, 
              BIPARTISAN COMMISSION ON BIODEFENSE

    Ms. George. Thank you, Chairman Payne.
    Mr. Chairman, Ranking Member King, Mr. Crenshaw, Mr. Guest, 
and the other Members of the subcommittee, thank you very much 
for having me here today. I appreciate the opportunity to talk 
with you. Certainly, as former professional staff of this 
committee, I am particularly glad and honored to be here and 
recognize the Congressional staff for their hard work to pull 
this hearing together.
    On behalf of former Senator Joe Lieberman and former 
Governor and Secretary of Homeland Security Tom Ridge, who are 
the co-chairs for our Commission, I am pleased to be here to 
talk about a terrible topic, bioterrorism preparedness and our 
ability to defend against biological attacks.
    Our other commissioners are former Senate Majority Leader 
Tom Daschle, former Representative Jim Greenwood, former 
Homeland Security Advisor Ken Wainstein, and former Homeland 
Security Advisor and Counterterrorism Advisor Lisa Monaco.
    I mention Senator Daschle, of course because 18 years ago 
this week was when his office received an anthrax letter in the 
Hart Senate Office Building. That letter shut down that 
building for 3 months and certainly had a wide-ranging impact 
on all of the offices here on the Capitol.
    Homeland in particular wound up having to change its 
security protocols and continues, I know, to receive the 
occasional terrible white powder package or letter. It is still 
an issue for Congress, and it is still an issue for the Nation.
    In October 2015, we released our first report, a National 
Blueprint on Biodefense. That report contained 33 
recommendations to cover the span of biological defense 
activities. So we address everything from prevention and 
deterrence through preparedness, detection, response, 
attribution, recovery, and mitigation, so all of it. All of the 
Federal departments and a number of our independent agencies 
have a role to play and responsibilities for biodefense. We 
tried and address as many of them as we could.
    One of our recommendations was for a National Biodefense 
Strategy. Congress put that in the NDAA for fiscal year 2017, 
President Obama signed it, and the Trump administration 
released it last year.
    Unfortunately, the Federal Government hasn't been able to 
get its act together quite yet to implement that strategy. But 
it is on its way. At least we have a strategy for them to work 
from.
    I think it is important to remember that the Nation is not 
adequately prepared and has not been adequately prepared for 
more than a decade now. The hearings that this committee has 
held numerous times demonstrate that.
    Worse, current efforts to develop new technology to detect 
the threat are insufficient and are going in the wrong 
direction. We often talk about the threat--and I know, Chairman 
Payne, you are very interested in hearing about the threat. We 
have nation-state and terrorist threats to worry about. Russia, 
China, North Korea, and Iran are all suspected now of 
maintaining their biological weapons programs. Al-Qaeda, ISIL, 
and other terrorists organizations continue to be very vocal 
about their pursuit of biological weapons and have gone as far 
as to put training materials up on the internet to train others 
on how to execute such an action.
    So we need to do something about this. The threat is still 
with us, and it requires an active biodefense program, 
particularly by the Department of Homeland Security.
    So the Department recognizes this, and nobody disagrees 
with this. As you know, we put in place a BioWatch program back 
in 2003 of biological detectors throughout the Nation. That 
system has not worked particularly well, as many of your 
hearings have demonstrated, and so the Department decided to 
create a new program called Biodetection 21, BD21.
    We are not particularly supportive of that particular 
program. We would like to see its goals be achieved to replace 
the BioWatch system with much better detectors, but their 
approach is flawed. They are not utilizing state-of-the-art 
technology to test. They are not using standard acquisition 
procedures. Frankly, they are not seeking the input of State 
and local folks who are actually going to have to respond to 
whatever happens with these.
    So, of course, in conclusion, I think there are a number of 
solutions, and they don't require tons of money or huge amounts 
of new legislation. I would be happy to talk with you about 
those further.
    [The prepared statement of Ms. George follows:]
                  Prepared Statement of Asha M. George
                            October 17, 2019
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee: Thank you for your invitation to provide the perspective 
of the Bipartisan Commission on Biodefense. On behalf of our 
Commission--and as a former subcommittee staff director and senior 
professional staff for this committee--I am glad to have the 
opportunity today to discuss our findings and recommendations with 
respect to biological terrorism and National defense against biological 
threats.
    Our commission assembled in 2014 to examine the biological threat 
to the United States and to develop recommendations to address gaps in 
National biodefense. Former Senator Joe Lieberman and former Secretary 
of Homeland Security and Governor Tom Ridge co-chair the commission, 
and are joined by former Senate Majority Leader Tom Daschle, former 
Representative Jim Greenwood, former Homeland Security Advisor Ken 
Wainstein, and former Homeland Security and Counter Terrorism Advisor 
Lisa Monaco. Our commissioners possess many years of experience with 
National and homeland security.
    In October 2015, the Commission released its first report, A 
National Blueprint for Biodefense: Major Reform Needed to Optimize 
Efforts. Shortly thereafter, we presented our findings and 
recommendations to this committee. We made 33 recommendations with 87 
associated short-, medium-, and long-term programmatic, legislative, 
and policy action items. If implemented, these would improve Federal 
efforts across the spectrum of biodefense activities--prevention, 
deterrence, preparedness, detection and surveillance, response, 
attribution, recovery, and mitigation.
    Since the release of the Blueprint for Biodefense, we have 
presented additional findings and recommendations in Defense of Animal 
Agriculture (2017), Budget Reform for Biodefense: Integrated Budget 
Needed to Increase Return on Investment (2018); and Holding the Line on 
Biodefense: State, Local, Tribal, and Territorial Reinforcements Needed 
(2018). We also continue to assess Federal implementation of our 
recommendations. We issued our first assessment, Biodefense Indicators, 
in 2016, 1 year after we released the Blueprint for Biodefense, and 
found that events were outpacing Federal efforts to defend the Nation 
against biological threats.
    Our third recommendation in the Blueprint for Biodefense called for 
the development and implementation of a National Biodefense Strategy. 
The goal was for the Federal Government to take existing Presidential 
directives, public laws, and international treaties, partnerships, and 
instruments that address biodefense, as well as all of the many Federal 
policy, strategy, and guidance documents that address bits and pieces 
of biodefense, and create one comprehensive strategy that subsumes them 
all. Required by Congress in the National Defense Authorization Act of 
Fiscal Year 2017, signed into law by President Obama, and produced by 
the Trump administration in September 2018, the National Biodefense 
Strategy now exists to guide defense against biological threats to our 
country.
    Substantial participation is required by non-Federal partners to 
help implement this strategy. State, local, Tribal, and territorial 
governments, and non-Governmental stakeholders respond to the immediate 
impact of biological events. There is no guarantee that Federal support 
will arrive within the first few hours after a biological event occurs. 
The Federal Government must greatly strengthen non-Federal capabilities 
and capacities by increasing support to them. Collaboration, 
coordination, and innovation are all needed--for Government policy, 
public and private-sector investments, advancing science and 
technology, intelligence activities, and public engagement. We also 
need to foster entrepreneurial thinking and develop radically effective 
solutions.
    We are greatly concerned about intentionally-introduced biological 
threats. Four years after the release of our initial report, the Nation 
remains unprepared for bioterrorism and biological warfare with 
catastrophic consequences. Worse, current efforts to develop needed 
technology to detect the threat are insufficient and going in the wrong 
direction.
    Biodefense is not a new requirement for our country. At one time, 
the United States developed both biological weapons and the ability to 
defend against them. We collected intelligence on our enemies' 
activities (although admittedly, we missed the continued activities of 
the Former Soviet Union after we ceased our own offensive biological 
weapons program). We rightly feared the specters of horrific diseases 
like smallpox and worked hard to eradicate them with vaccines, 
antibiotics, and other medicines. But over time, as our public health 
and health care systems improved and we decided not to engage in 
biological warfare, we reduced our National emphasis on, and fiscal 
support for, biodefense.
    The biological threat has only increased since the anthrax events 
of 2001. We suspect North Korea and other countries of continuing or 
creating biological weapons programs. Al-Qaeda, the Islamic State of 
Iraq and the Levant, and other terrorist organizations have been quite 
vocal about their active pursuit of biological weapons. We are not 
alone in expressing our concerns. The United Nations, as well as 
France, Germany, the United Kingdom, and other European countries; 
Russia; and other nations have also articulated their suspicions and 
apprehensions.
    Letters containing anthrax spores were received in the Hart Senate 
Office Building 18 years ago this week, shutting the building down for 
3 months. One of our commissioners, former Senate Majority Leader Tom 
Daschle, was the target of one of those letters. More were sent to 
other locations. Anthrax killed 5 people, made 17 others sick, reduced 
business productivity, and forced us to engage in costly 
decontamination, remediation, and treatment after the fact. Clearly, 
the Nation was not adequately prepared.
    Today, the biological threat has not ebbed. No Federal department 
or agency disagrees with this assessment. The Department of State 
believes that Russia and North Korea continue activities to develop 
biological weapons, and is unsure whether China and Iran have 
eliminated their biological warfare programs. Nation-states such as 
China and Russia hardly bother to hide their efforts to drive high 
biotechnology, much of which is dual-use and could be easily turned to 
produce large quantities of biological agents and weapons. China alone 
will invest about $12 billion to advance biotechnology innovation from 
2015 to 2020. Terrorist organizations continue to place training 
materials on-line for conducting biological attacks with anthrax, 
botulism, and other biological agents. Ebola was never fully eradicated 
and defies control to this day. And the U.S. Army Medical Research 
Institute of Infectious Diseases, one of the Nation's most important 
laboratories for research on biological agents and deadly diseases for 
which we have no cure is currently shut down because it failed to meet 
biosafety standards.
    The Director of National Intelligence again testified about the 
biological threat before Congress this year, expressing the 
intelligence community's growing concern about the increasing diversity 
of, and ability to develop, traditional and novel biological agents; 
ways in which they can be used in attacks; ability to produce 
biological weapons; and the risks they pose to economies, militaries, 
public health, and agriculture of the United States and the world. The 
National Intelligence Council also made similar statements in its 
latest Global Trends report, focusing on the risk associated with 
synthetic biology and genome editing, and how advances in biotechnology 
are making it easier to develop and use biological weapons of mass 
destruction.
    Given the severity of the threat, the Federal Government has spent, 
and continues to spend, millions to develop, improve, and deploy 
technology in hopes of rapidly detecting biological attacks. Effective 
environmental surveillance should assist with pathogen identification 
and provide early warning. Unfortunately, as this committee is well 
aware, the equipment designed to detect airborne biological 
contaminants do not perform well and have not progressed significantly 
since their initial deployments. The Federal Government has also failed 
to efficiently and comprehensively integrate and analyze human, animal, 
plant, water, and soil surveillance data.
    The United States launched the BioWatch biodetection program in 
2003, but its potential remains unrealized. As of 2019, BioWatch uses 
the same technology (e.g., manual filter collection, laboratory 
polymerase chain reaction testing) as it did 6 years ago. The 
Department of Homeland Security Office of Countering Weapons of Mass 
Destruction oversees the BioWatch program of Nationally-distributed 
detectors that sample the air for a select number of pathogens. Non-
Federal public health laboratories then analyze the samples. 
Technological limitations of the system include: (1) Reliance on wind 
blowing in optimal directions; (2) taking up to 36 hours to provide 
notification of the possible presence of a pathogen; (3) inactivation 
of specimens, preventing determinations of whether live organisms were 
released; and (4) inability to differentiate between normal background 
and harmful pathogens. Additionally, Federal agencies involved in 
determining what to do with BioWatch-related test results often 
disagree as to what course of action should be taken and do not always 
consult non-Federal public health and other leaders, even though they 
often must make many response decisions.
    Late last year, the Department of Homeland Security announced a new 
initiative--Biodetection 21 or BD21--to replace existing, inadequate 
BioWatch technology. This effort has already seen its share of 
problems. The Department is not testing state-of-the-art technology. 
The Department has not established requirements for new platforms. The 
Department has not sought comprehensive input from relevant 
stakeholders. Instead, BD21 is testing old Department of Defense 
technology for domestic use, rather than evaluating more current and 
advanced Department of Defense candidates. Some of the technology under 
evaluation may itself be flawed, lacking sufficient validity and 
reliability data. State, local, Tribal, and territorial partners have 
been left almost entirely out of the loop. They are unsure if they can 
support the system, because no vision for it has been communicated to 
them, other Federal partners, and Congress. These characteristics do 
not provide a good basis for success.
    The Bipartisan Commission on Biodefense supports efforts to 
develop, deploy, and maintain effective biodetection technology. We 
support efforts to replace poor and nonfunctioning BioWatch technology. 
We support Congressional efforts to ensure that the $80 million in 
taxpayer funds spent annually on BioWatch is used wisely going forward.
    The Department of Homeland Security must engage in good Government 
by identifying requirements with non-Federal Governmental 
representatives, testing candidates with scientific and organized 
processes, and utilizing standard acquisition procedures in awarding 
contracts. We continue to recommend that the Department of Defense 
transfer more advanced, far-better-performing biodetection technology 
to the Department of Homeland Security for domestic testing. We also 
recommend that the Department of Homeland Security reengage its Science 
and Technology Directorate, as the problem is now, and has always been, 
one of basic, applied science. It may also be time to reach back to the 
National laboratories that worked on biodetectors in the late 1990's 
and which continue to conduct research in this arena for assistance.
    Finally, Congress needs to reexamine authorization of, and 
appropriations for, this program and that of the National 
Biosurveillance Integration System and Center. The biological threat is 
increasing, our Nation grows increasingly vulnerable to this threat, 
and the catastrophic consequences are far too great to ignore.
    Once again, thank you for this opportunity to address biodefense. 
We appreciate the committee's interest in our Commission since its 
inception. I also thank Hudson Institute, which serves as our fiscal 
sponsor, and all of the organizations that support our efforts 
financially and otherwise. We look forward to continuing to work with 
you to strengthen National biodefense.
    Please see our bipartisan report, A National Blueprint for 
Biodefense* and our other reports for more details regarding the 
following 33 recommendations:
---------------------------------------------------------------------------
    * The document has been retained in committee files and is 
available at https://biodefensecommission.org/reports/a-national-
blueprint-for-biodefense/.
---------------------------------------------------------------------------
    1. Institutionalize biodefense in the Office of the Vice President 
        of the United States.
    2. Establish a Biodefense Coordination Council at the White House, 
        led by the Vice President.
    3. Develop, implement, and update a comprehensive National 
        biodefense strategy.
    4. Unify biodefense budgeting.
    5. Determine and establish a clear Congressional agenda to ensure 
        National biodefense.
    6. Improve management of the biological intelligence enterprise.
    7. Integrate animal health and One Health approaches into 
        biodefense strategies.
    8. Prioritize and align investments in medical countermeasures 
        among all Federal stakeholders.
    9. Better support and inform decisions based on biological 
        attribution.
    10. Establish a National environmental decontamination and 
        remediation capacity.
    11. Implement an integrated National biosurveillance capability.
    12. Empower non-Federal entities to be equal biosurveillance 
        partners.
    13. Optimize the National Biosurveillance Integration System.
    14. Improve surveillance of, and planning for, animal and zoonotic 
        outbreaks.
    15. Provide emergency service providers with the resources they 
        need to keep themselves and their families safe.
    16. Redouble efforts to share information with State, local, 
        Tribal, and territorial partners.
    17. Fund the Public Health Emergency Preparedness cooperative 
        agreement at no less than authorized levels.
    18. Establish and utilize a standard process to develop and issue 
        clinical infection control guidance for biological events.
    19. Minimize redirection of Hospital Preparedness Program funds.
    20. Provide the financial incentives hospitals need to prepare for 
        biological events.
    21. Establish a biodefense hospital system.
    22. Develop and implement a Medical Countermeasure Response 
        Framework.
    23. Allow for forward deployment of Strategic National Stockpile 
        assets.
    24. Harden pathogen and advanced biotechnology information from 
        cyber attacks.
    25. Renew U.S. leadership of the Biological and Toxin Weapons 
        Convention.
    26. Implement military-civilian collaboration for biodefense.
    27. Prioritize innovation over incrementalism in medical 
        countermeasure development.
    28. Fully prioritize, fund, and incentivize the medical 
        countermeasure enterprise.
    29. Reform Biomedical Advanced Research and Development Authority 
        contracting.
    30. Incentivize development of rapid point-of-care diagnostics.
    31. Develop a 21st Century-worthy environmental detection system.
    32. Review and overhaul the Select Agent Program.
    33. Lead the way toward establishing a functional and agile global 
        public health response apparatus.

    Mr. Payne. Thank you very much.
    I now recognize Dr. Rakeman to summarize her statement for 
5 minutes.

 STATEMENT OF JENNIFER L. RAKEMAN, ASSISTANT COMMISSIONER AND 
 DIRECTOR, PUBLIC HEALTH LABORATORY, DEPARTMENT OF HEALTH AND 
               MENTAL HYGIENE, NEW YORK, NEW YORK

    Ms. Rakeman. Thank you.
    Good morning, Chairman Payne, Ranking Member King, and 
Members of the subcommittee. I am Dr. Jennifer Rakeman, 
assistant commissioner and laboratory director of the Public 
Health Laboratory at the New York City Department of Health and 
Mental Hygiene.
    On behalf of Mayor Bill de Blasio and Health Commissioner 
Dr. Oxiris Barbot, thank you for the opportunity to testify on 
New York City's biothreat detection efforts and on-going work 
to prepare for and respond to public health emergencies.
    I am here today to discuss the vital role that public 
health plays in biothreat detection efforts and how the New 
York City Health Department collaborates with city agencies and 
coordinates with State and Federal partners to prepare for and 
respond to emergencies.
    Our Nation's public health and health care infrastructure 
play a critical role in protecting people from a range of 
hazards, including bioterrorism and infectious diseases. Local 
public health departments and their partners are on the front 
lines and are often the first to detect and respond to disease 
outbreaks.
    Core public health infrastructure at the local level 
requires state-of-the-art laboratories and electronic 
surveillance systems. We also need highly-skilled staff, such 
as laboratory leadership, lab bench technologists, 
epidemiologists, informatics specialists, and emergency 
management and response experts to enable the people and 
systems to operate efficiently during emergencies.
    What we do every day at the local level is backed by our 
partners at the Federal level, such as the Centers for Disease 
Control and Prevention and the Department of Homeland Security. 
For this system to work, each piece must be appropriately 
resourced and engage in on-going transparent communication and 
collaboration.
    As the largest, most densely-populated city in the United 
States, New York City is an international hub for business, 
media, and tourism. Consequently, we face a high risk of both 
intentionally disseminated and naturally-occurring hazards. A 
biological attack or large-scale infectious disease outbreak in 
New York City would significantly impact the health, security, 
economy, and political stability not only of the city but of 
the rest of the country and will have an international impact.
    The New York City Public Health Laboratory is a local 
laboratory that serves a population larger than that of most 
States. It has been central to the New York City response to 
the Amerithrax letters in 2001, the H1N1 outbreak in 2009, 
Ebola in 2014, Zika in 2016, and the recent unprecedented 
measles outbreak in New York.
    In addition, the New York City Public Health Lab, in 
coordination with the CDC's Laboratory Response Network, 
provides local diagnostic testing for emerging and highly-
pathogenic diseases, including Ebola virus disease and Middle 
East Respiratory Syndrome coronavirus, or MERS.
    Seven days after the 9/11 attacks in 2001, letters tainted 
with Bacillus anthracis, which causes anthrax, were sent to 
media companies and Congressional offices. The investigation 
that followed resulted in a Nation-wide focus on bioterrorism 
and identified significant gaps in our ability to protect the 
public's health.
    In 2003, as a result of this investigation, BioWatch was 
created and quickly rolled out to a number of jurisdictions, 
including New York City. BioWatch is intended to serve as an 
early warning system of a wide-spread attack with one of a 
small number of potential biological threat agents.
    As the lead scientific agency for the New York City 
BioWatch program, the health department is responsible for the 
day-to-day technical oversight of the BioWatch laboratory 
testing and the development of environmental sampling plans to 
be deployed in the event of a BioWatch detection.
    While the Public Health Laboratory hosts the BioWatch lab, 
neither the PHL, nor the New York City Health Department, has 
input regarding the standard operating procedures and testing 
reagents used for BioWatch testing. Further, the local 
jurisdictions do not have detailed information regarding basic 
performance characteristics of the tests to which we are asked 
to respond.
    However, as the Public Health Lab director, I am 
responsible for determining that a BioWatch result is valid and 
is a BioWatch actionable result, or BAR, to be reported to 
local Federal partners and to determine what response actions 
will be taken.
    In 2010, after New York City experienced an unacceptable 
increase in the number of false positive BioWatch testing 
results, the New York City Public Health Lab revised the 
testing algorithm to differ from the National BioWatch program 
standard to require additional verification to minimize this 
threat of a false positive BAR.
    New York City has taken a leadership role Nationally in 
pushing for a better system that provides reliable results. As 
the committee is aware, DHS is proposing to replace BioWatch 
with a new system, BD21, the intention of which is to detect a 
potential release in near-real time. BD21 will use real-time 
detectors of biological anomalies in the field to signal the 
initiation of additional sample collection and testing.
    A biodetection program is an essential public health tool 
for a global city like New York. We understand the need for a 
reliable biodetection system and applaud the efforts to improve 
upon the current system, both in the timing of detection and 
the reliability of the assays.
    However, both BioWatch and the proposed BD21 systems fail 
to meet even minimum standards that any other test deployed in 
a public health laboratory would need to meet.
    While we support advancing the current BioWatch program to 
take advantage of modern biothreat detection technology, we 
have concerns about the deployment of this new program and the 
options under evaluation as part of BD21.
    Instruments currently deployed for military use, which have 
generated regular false alarms, are being considered for 
implementation in New York City and throughout the country. 
Biothreat detection systems requirements for urban settings 
like New York fundamentally differ from the requirements for 
those used in military settings.
    Mr. Payne. Please wrap up.
    Ms. Rakeman. The implications for launching a substantial 
response based on a false positive are far-reaching and will 
have associated morbidity and mortality.
    It is imperative that DHS has an on-going dialog with other 
Federal partners, such as CDC and ASPR and, critically, with 
local jurisdictions throughout this process.
    Chairman Payne and Ranking Member King, thank you once 
again for inviting me to testify today. Our concerns regarding 
BioWatch, BD21, and the need for a stable investment in public 
health preparedness are shared by cities across the Nation.
    [The prepared statement of Ms. Rakeman follows:]
               Prepared Statement of Jennifer L. Rakeman
                            October 17, 2019
    Good morning Chairman Payne, Ranking Member King, and Members of 
the subcommittee. I am Dr. Jennifer Rakeman, assistant commissioner and 
laboratory director of the Public Health Laboratory at the New York 
City Department of Health and Mental Hygiene (NYC Health Department). 
On behalf of Mayor Bill de Blasio and Health Commissioner Dr. Oxiris 
Barbot, thank you for the opportunity to testify on New York City's 
(NYC) biothreat detection efforts and on-going work to prepare for and 
respond to public health emergencies.
                public health and emergency preparedness
    I am here today to discuss the vital role that public health plays 
in biothreat detection efforts and how the NYC Health Department 
collaborates with city agencies and coordinates with State and Federal 
partners to prepare for and respond to emergencies.
    Our Nation's public health and health care infrastructure play a 
critical role in protecting people from a range of hazards, including 
bioterrorism and infectious diseases. Local public health departments 
and their partners are on the front lines and are often the first to 
detect and respond to disease outbreaks. What we do every day at the 
local level is backed by our partners at the Federal level, such as the 
Centers for Disease Control and Prevention (CDC) and the Department of 
Homeland Security (DHS). For this system to work, each piece must be 
appropriately resourced and engage in on-going transparent 
communication and collaboration.
    A robust public health infrastructure saves lives and is crucial 
for all jurisdictions. Core public health infrastructure at the local 
level requires state-of-the-art laboratories and electronic 
surveillance systems. We also need highly-skilled staff such as 
laboratory leadership, bench technologists, epidemiologists, 
informatics specialists, and emergency management and response experts 
who enable the people and systems to operate effectively during 
emergencies. Core public health infrastructure is essential to detect 
and respond to emerging diseases and outbreaks. Without it, we risk the 
rapid spread of disease, increased illness, and death. It is therefore 
critical to our Nation's security that local health departments receive 
the necessary resources to maintain these capabilities.
    Public health and health care system readiness noticeably expanded 
and improved after 9/11, with an influx of Federal preparedness funding 
from the CDC and the Assistant Secretary for Preparedness and Response 
(ASPR). Public health departments and health care systems have used 
these funds to invest in staff, purchase equipment and instrumentation, 
implement critical information technology (IT) systems, and create 
response plans. Adequate funding allows operators to train and exercise 
these plans to prepare for a broad range of emergencies and maintain a 
strong, experienced workforce necessary for a robust response.
                         new york city context
    As the largest, most densely-populated city in the United States, 
NYC is an international hub for business, media, and tourism. 
Consequently, we face a high risk of both intentionally disseminated 
and naturally-occurring hazards. A biological attack or large-scale 
infectious disease outbreak in NYC would significantly impact the 
health, security, economy, and political stability of not only the 
city, but the rest of the country, and will have international impact. 
The NYC Public Health Laboratory (PHL) serves a population larger than 
that of most States. It has been central to the NYC response to the 
Amerithrax letters in 2001, H1N1 outbreak in 2009, Ebola in 2014, Zika 
virus in 2016, and the recent, unprecedented measles outbreak. In 
addition, the NYC PHL, in coordination with the CDC's Laboratory 
Response Network (LRN), provides local diagnostic testing for emerging 
and highly pathogenic diseases including Ebola virus disease and Middle 
East respiratory syndrome corona virus (MERS-CoV).
    Seven days after the 9/11 attacks in 2001, letters tainted with 
Bacillus anthracis were sent to media companies and Congressional 
offices. The investigation that followed resulted in a Nation-wide 
focus on bioterrorism and identified significant gaps in our ability to 
protect the public's health. In 2003, as a result of this 
investigation, BioWatch was created and quickly rolled out to a number 
of jurisdictions, including NYC. BioWatch is intended to serve as an 
early warning system of a wide-spread attack with one of a small number 
of potential biological threat agents.
    As the lead scientific agency for the NYC BioWatch program, the NYC 
Health Department is responsible for the day-to-day technical oversight 
of BioWatch laboratory testing and is responsible for the development 
of environmental sampling plans to be deployed in the event of a 
BioWatch detection. While the NYC PHL hosts the BioWatch laboratory, 
neither the NYC PHL nor the NYC Health Department has input regarding 
the standard operating procedures and testing reagents used for 
BioWatch testing. Further, the local jurisdictions do not have detailed 
information regarding basic performance characteristics of the tests to 
which we are asked to respond. However, as the PHL Laboratory Director, 
I am responsible for determining that a BioWatch result is valid and is 
a ``BioWatch Actionable Result'' (or BAR) to be reported to local and 
Federal partners to determine what response actions will be taken.
    In 2010, after NYC experienced an unacceptable increase in the 
number of false positive BioWatch testing results, the NYC PHL revised 
the testing algorithm to differ from the National BioWatch program 
standard to require additional verification to minimize the threat of a 
false positive BAR. The same BioWatch reagents and testing standard 
operating procedures are used, as required by the BioWatch program, but 
part of the test is repeated in the NYC algorithm as a check of the 
initial positive result.
                   cooperation with federal partners
    NYC has taken a leadership role Nationally in pushing for a better 
system that provides reliable results, and has worked closely with the 
CDC, DHS, and other jurisdictions to inform the building of a biothreat 
detection architecture with acceptable performance characteristics 
required in urban and civilian settings. As the committee is aware, DHS 
is proposing to replace BioWatch with a new detection system, 
BioDetection 21 (BD21), the intention of which is to detect a potential 
release in near real-time. BD21 will use real-time detectors of 
``biological anomalies'' in the field to signal the initiation of 
additional sample collection and testing. A biodetection program is an 
essential public health tool for a global city like NYC. We understand 
the need for a reliable biodetection system and applaud the efforts to 
improve upon the current system, both in the timing of detection and 
the reliability of the assays. However, both BioWatch and the proposed 
BD21 systems fail to meet even minimum standards that any other test 
deployed in a public health laboratory would need to meet.
    While we support advancing the current BioWatch program to take 
advantage of modern biothreat detection technology, we have concerns 
about the deployment of this new program and the options under 
evaluation as part of BD21. Instruments currently deployed for military 
use, which have generated regular false alarms, are being considered 
for implementation in NYC and throughout the country. Biothreat 
detection system requirements for urban settings like NYC fundamentally 
differ from the requirements for those used in military settings. The 
implications for launching a substantial response based on a false-
positive biothreat detection could have profound economic consequences 
and will have associated morbidity and mortality.
    DHS has communicated very little about the program and has made it 
clear that jurisdictions will need to develop response plans without 
any input or consideration to the technology deployed, evaluation 
plans, or access to evaluation data. Local public health agencies have 
been left out of the conversation and, at best, are receiving very 
limited information and no data. Active, on-going collaboration between 
local, State, and Federal partners is critical to the development and 
deployment of a successful biodetection program. It is imperative that 
DHS has an on-going dialog with other Federal partners, such as CDC and 
ASPR, and, critically, with State and local jurisdictions throughout 
this process. The local end-users must be confident that the system is 
based on scientifically-sound principles, that it will be used 
appropriately, and that the technology will generate information with 
sufficient fidelity for an actionable response. We are grateful for the 
subcommittee's interest in this matter.
          importance of federal emergency preparedness funding
    A strong public health and health care system preparedness and 
response infrastructure is an essential component of National security 
to any biodetection program. However, significant cuts in Federal 
funding have hampered State and local readiness at a time when emerging 
diseases are spreading faster than ever before. NYC relies on Federal 
funding to prepare for, detect, and respond to public health 
emergencies. Over the past 14 years, this funding has been 
significantly reduced--including a 34 percent cut to the Public Health 
Emergency Preparedness (PHEP) program and 39 percent cut to the 
Hospital Preparedness Program (HPP) funding since fiscal year 2005. The 
most drastic impact of these cuts has been the significant reduction in 
the public health preparedness and response workforce in NYC. If there 
are no public health laboratory scientists, epidemiologists, 
environmental health specialists, emergency managers, and risk 
communication experts to build the local alarm system, and then hear 
the alarm and respond when it goes off, we cannot protect the health of 
the American public. This critical workforce needs an infrastructure to 
enable them to do their work--state-of-the-art public health 
laboratories that are flush with instrumentation, reagents, and 
supplies, information technology solutions for the analysis of data, 
and interoperable electronic systems to share that data are all also 
basic necessities for protecting Americans.
    Additionally, funding for the CDC Epidemiology and Laboratory 
Capacity (ELC) Infection Control and Laboratory BioSafety Officer (BSO) 
programs ended in March 2019. These programs provided critical support 
for infection control and clinical laboratories at health care 
facilities. The BSO network ensured that clinical laboratory staff 
across the country were trained to safely handle and test specimens 
from patients that may have a highly infectious disease. This program 
is critical to ensuring the safety of the health care workforce and to 
ensure that all patients are able to receive appropriate life-
sustaining care, and allows NYC and the rest of the country to maintain 
these capabilities. This loss of funding threatens to waste years of 
investment and relationship-building with critical partners.
    In 2014, Congress appropriated funding to prepare public health and 
health care systems to respond to cases from the Ebola outbreak in West 
Africa that reached the United States and prevent further transmission. 
This funding has helped sustain the capacity of 10 Regional Ebola and 
Other Special Pathogen Treatment Centers (RESPTC), state-designated 
Ebola Treatment Centers (ETCs) as well as front-line hospitals, health 
departments, and emergency medical services (EMS). With this funding, 
the capability to identify and safely care for patients with viral 
hemorrhagic fevers and other high-consequence infectious diseases was 
built and maintained. These funds supported joint planning and regional 
coordination between public health, health care, EMS, and law 
enforcement to rapidly respond, and were critical to the replacement of 
aging laboratory equipment and instrumentation, initially purchased 
with post-9/11 funding, in public health laboratories. As a result, our 
country is substantially more prepared to manage cases of Ebola than 
ever before. However, there is no plan to continue funding when it 
expires in 2020. Local health departments, public health laboratories, 
and health care systems around the country cannot continue to function 
on sporadic funding. We cannot wait for the next major public health 
emergency to maintain critical infrastructure.
    Chairman Payne and Ranking Member King, thank you once again for 
inviting me to testify today. Our concerns regarding BioWatch, the BD21 
system, and the need for stable investment in public health 
preparedness are shared by cities across our Nation. Federal investment 
and collaboration is critical to ensuring local government's ability to 
stay ahead of emerging threats. I look forward to your questions.

    Mr. Payne. Thank you. Thank you very much.
    Now, I recognize Dr. Shah to summarize his statement for 5 
minutes.

  STATEMENT OF UMAIR A. SHAH, M.D., MPH, EXECUTIVE DIRECTOR, 
              PUBLIC HEALTH, HARRIS COUNTY, TEXAS

    Dr. Shah. Good morning, Chairman Payne and Ranking Member 
King. It is wonderful to join you both and Members of the 
subcommittee today.
    I also want to extend greetings to fellow Texans, 
Representative Green and Representative Crenshaw. I hope you, 
too, will join me in wishing the Houston Astros well against 
the New York Yankees.
    Mr. King. I object to that remark.
    Dr. Shah. I hope that is not considered a partisan 
statement.
    Thank you for inviting me to testify on this important 
topic. I am joined by Michael ``Mac'' McClendon, our director 
of the Office of Public Health Preparedness and Response, and 
Albert Chang, in our area of policy.
    My name is Dr. Umair Shah. I am the executive director of 
the Harris County Public Health and the local health authority 
of Harris County, Texas, the third-largest county in the United 
States. I am also the past president of NACCHO, the National 
Association of County and City Health Officials, representing 
the Nation's nearly 3,000 local health departments, and its 
Texas affiliate, TACCHO, which represents 45 local health 
departments across Texas.
    I am also an emergency department physician at the Michael 
E. DeBakey VA Medical Center in Houston, where I have proudly 
cared for our Nation's veterans for the last 20 years.
    Today, I am here to testify on local public health's key 
role in emergency preparedness and response with respect to 
bioterrorism.
    I have limited time, so please refer to my full written 
testimony. Let me point out, though, that, on the top of page 
7, the testimony inadvertently refers to HHS when it should 
have instead stated DHS. Please note that correction.
    Today, I will touch on 3 main points. One, public health 
truly matters, especially at the local level and in 
emergencies, yet it is largely invisible.
    I refer to this as the #invisibilitycrisis. This 
invisibility is a major issue in ensuring adequate capacity for 
preparing and responding to a myriad of emergencies. Frankly, 
our communities most often do not even know we are working on 
their behalf when we are.
    No. 2, emergencies occur repeatedly and unexpectedly, and 
public health must have strong tools at its disposal to protect 
our communities. Biodetection systems are important such tools, 
but even they cannot be used in isolation.
    No. 3, there is a science and an art to public health, just 
as in medicine, and we must have access and availability to as 
much information as possible to make decisions. This means that 
Federal, State, and local partners must plan together today in 
order to protect our communities more effectively tomorrow.
    I speak to you as someone who comes from an impacted 
community. Since Tropical Storm Allison in 2001, we have 
responded to the H1N1 pandemic, West Nile virus, Ebola, Zika, 
Hurricanes Katrina, Rita, Ike, Harvey, and just this year a 
resurgence of measles, 3 large-scale petrochemical fires, 
confirmed vaping cases, and, most recently, Tropical Storm 
Imelda. No doubt Harris County has seen it all, but our story 
is one of a community of strength and resilience.
    Harris County Public Health is part of the Houston/
Galveston Metro Area BioWatch Advisory Committee. The BAC is 
one of many such BACs across the country.
    In 2003, our community witnessed the Nation's first 
BioWatch actionable result, a BAR, when low levels of 
Francisella tularensis were detected for three consecutive 
days. We eventually confirmed the detection was due to a 
naturally-occurring source, but it took time to rule out a 
weaponized version.
    As many communities, too, have learned, a biodetection 
positive is not the same as a public health positive. While 
biodetection systems must be robust and accurate, effective, 
and efficient, they are still tools within a well-established 
public health emergency response system.
    We cannot forget, no matter how invisible they may be, 
local public health personnel are the quote-unquote, boots on 
the ground in ensuring communities are prepared for, protected 
from, and resilient to a variety of health threats.
    Much of the discussion today is focused on the science of 
biodetection. While I agree there is a science to public health 
decision making, there is also an art. Despite the technologies 
at our disposal, this decision making is based on the expertise 
of the individuals and agencies who are part of the process 
based on all available data points.
    This is why in medicine, we ensure a finding from a 
diagnostic test is both confirmed and put into context of the 
patient in front of us. Local public health officials take 
other factors into consideration, including community concerns 
as well as political, economic, and other ramifications for 
actions such as canceling large-scale events and how to 
respond.
    This is why locals must be a part of the equation. We 
cannot be brought in at the end. Ultimately, the decision of 
how to respond to a biodetection hit must be a shared one 
involving local decision makers and responders, front and 
center. This means Federal, State, and local partners must work 
together as do public health and emergency management, law 
enforcement, and health care delivery, all partners alike. 
Ultimately, we are all part of the same team, and our 
communities expect it.
    Let me close by saying I am honored to represent our 
amazingly resilient community, as well as the strong, dedicated 
public health professionals that give it their all as first 
responders in emergencies each and every day, not just at 
Harris County Public Health but in the 3,000 such local health 
departments across the Nation.
    I appreciate again the opportunity to testify today and 
look forward to your questions.
    Thank you.
    [The prepared statement of Dr. Shah follows:]
                  Prepared Statement of Umair A. Shah
                            October 17, 2019
    I would like to thank Chairman Thompson, Ranking Member Rogers, 
Subcommittee Chairman Payne, Ranking Member King, and Members of the 
committee for the opportunity to testify today on behalf of local 
health departments and public health emergency responders across the 
country.
    My name is Dr. Umair Shah, and I am the executive director for 
Harris County Public Health (HCPH) and the local health authority for 
Harris County, Texas. Harris County is the third most populous county 
in the United States with 4.7 million people and is home to the 
Nation's 4th largest city, Houston. I am a past president and former 
board member of NACCHO, the National Association of County and City 
Health Officials. NACCHO is the voice of the nearly 3,000 local health 
departments (LHDs) across the country. I am also a past president and 
current board member of TACCHO, the Texas Association of City and 
County Health Officials, which represents approximately 45 LHDs across 
Texas.
    As background, Harris County is the most culturally diverse and one 
of the fastest-growing metropolitan areas in the United States and home 
to the world's largest medical complex, the Texas Medical Center, one 
of the Nation's busiest ports, the Port of Houston, and 2 of the 
Nation's busiest international airports. Our metropolitan area 
comprises the largest concentration of petrochemical manufacturing in 
the world. HCPH is the county public health agency responsible for 
protecting the public's health in the event of wide-spread public 
health emergencies within Harris County under the direction of County 
Judge Lina Hidalgo, who by State law, is the county's director of 
emergency management and leads the Harris County Office of Homeland 
Security & Emergency Management (HCOHSEM). In close coordination with 
HCOHSEM, HCPH's Office of Public Health Preparedness and Response 
(OPHPR) ensures an effective, coordinated public health response to a 
variety of emergencies including terrorist attacks, disease outbreaks, 
weather-related disasters, to name a few.
    In fact, our community has seen its share of emergencies over the 
years, including but not limited to Tropical Storm Alison (2001), 
Hurricane Katrina sheltering (2005), Hurricane Ike (2008) and more 
recently Hurricane Harvey (2017). Coupling these natural disasters with 
others such as the Department's 18-month nH1N1 influenza pandemic 
response (2008), West Nile virus (WNv) response (2012), Ebola readiness 
& ``response'' activities (2014-2015), human rabies death and rabies in 
a Harris County dog (2008 and 2015), Zika virus (2016-2017), measles 
``resurgence'' (2019), and 3 large-scale chemical fires in 2019 as 
well, our community is undoubtedly an impacted community. However, one 
thing one must remember about Harris County--and really this goes for 
all of Texas--is that it is also an incredibly strong and resilient 
community.
    In my testimony today, I will focus on 3 main points:
    1. We all agree that emergencies occur repeatedly, unexpectedly, 
        and we must ensure that our communities are prepared for what 
        lurks behind the next corner. BioWatch and the next generation 
        of biodetection are important tools in the toolbox for decision 
        making but are not the only tools. Yet these tools must be 
        effective which means they must be science-based and must 
        evolve as the science and threats equally evolve.
    2. Public health at all levels of government is vital--indeed we 
        say that public health truly matters! Public health must be 
        invested in and capacity built because it is absolutely 
        critical to protecting our communities even when it is largely 
        invisible or forgotten (the so-called ``Invisibility Crisis''). 
        Public health is equally a crucial sector that must be well-
        equipped and trained to prevent, protect against, mitigate, 
        respond to, and recover from all incidents whether small or 
        catastrophic.
    3. There is a science and an art to public health and we must have 
        access and availability to as much information as possible 
        especially during a biological attack to make appropriate, 
        difficult, nuanced decisions on behalf of our community so 
        sharing of that information is critical. We must continue to 
        involve all Federal, State, local, and even global partners in 
        not just response activities but also the planning phase.
                       protecting our communities
    HCPH is part of the Houston/Galveston Metro Area BioWatch Advisory 
Committee (BAC) and this BAC makes up 1 of the more than 30 BioWatch 
jurisdictions across the country. The National Academy of Medicine 
(formerly the Institute of Medicine) and the National Research Council 
convened a workshop in 2014 entitled, ``Strategies for Cost-effective 
and Flexible Biodetection Systems that Ensure Timely and Accurate 
Information for Public Health Officials'' that explored many of the 
issues around BioWatch and biodetection systems and needs. I 
participated in this workshop that was held 5 years ago--unfortunately 
many of those same themes that were inherent then are still of concern 
today. Many of the issues and problems with any biodetection system or 
the next generation replacement systems will always need to be 
addressed in order to ensure the most robust and accurate system and 
must be seen as a ``tool'' within a well-established public health 
emergency preparedness system. In 2003, our local community had the 
first BioWatch hit in the Nation when low levels of Francisella 
Tularensis (FT) were detected for 3 days. The detection caught natural-
occurring instances of the bacterium and yet no terrorism was 
discovered. Instead it caused a cascade of events and highlighted gaps 
that public health helped identify that I will describe within my 
testimony.
    The CDC Foundation states, ``Public health is the science of 
protecting and improving the health of people and their communities. 
Overall, public health is concerned with protecting the health of 
entire populations. These populations can be as small as a local 
neighborhood, or as big as an entire country or region of the world.'' 
Public health emergency preparedness is truly National health security. 
Local health departments play an essential role in ensuring that people 
and their communities are prepared for, protected from, and are 
resilient to, threats to health that result from a host of disasters 
and emergencies. Given that the impact of all disasters is felt locally 
first and foremost, local health departments have and will continue to 
play a critical part of every community's first response to disasters 
in an emergency and in the long-term recovery efforts. Local health 
departments regularly host trainings and exercises to prepare their own 
staff and health care partners for public health emergencies, to build 
consistent and on-going communication between partners, clearly define 
response roles, and anticipate challenges before an emergency occurs. 
And when disasters strike, local health departments are the ``boots on 
the ground'' responding to and helping communities recover.
    Much of the discussion around BioWatch is focused on the science of 
biodetection. I agree there is a ``science'' to public health decision 
making, but I also strongly maintain there is also an ``art'' to public 
health decision making. Public health decision making is still based on 
the experiences of the individuals and the agencies that are part of 
the process and performed in the contextual framework of a summation of 
available information. It is what we as clinicians and public health 
practitioners do all the time, which is really taking the situational 
contexts, the individual nuances, and making that part of our decision-
making process. BioWatch and the next iteration, BioDetection 21 
(BD21), should be considered simply as tools--one of many tools that 
are available to public health decision makers and needs to be kept in 
the context of that paradigm. The sum of all those tools is really how 
we go about making sound public health decisions.
    As mentioned earlier, our community had the Nation's first BioWatch 
Actionable Result (BAR) for tularemia in 2003. Our community has seen 
multiple subsequent tularemia detections where HCPH has been notified 
by our Houston Health Department partners who operate our region's 
Centers for Disease Control & Prevention (CDC) BioWatch Laboratory of a 
BAR. This has required considering those detection data, along with 
information from disease surveillance and contextual intelligence. 
Disease surveillance includes examining zoonotic patterns reported by 
local veterinary clinics and the State zoonosis surveillance system as 
well as data on human disease patterns that may have been reported by 
area hospitals or other health departments to our epidemiologists, or 
disease detectives. Contextual information includes details about 
environmental patterns and unusual security threats or security 
patterns.
    While this decision-making process is occurring, response partners 
begin mobilizing its crisis risk communication resources and makes sure 
that its operational support functions are ready. Local public health 
officials also take a number of other factors into consideration 
including community concerns as well as political and economic 
ramifications for actions such canceling large-scale community events 
when making decisions on how to respond to a BAR. Fiscal constraints in 
particular have a real impact on the value proposition of biodetection 
today. For example, investment in the technologies that enable programs 
such as BioWatch may compete with more broad-based public health 
investments and capacity building. This could mean decreased 
investments in other technologies such as syndromic surveillance and 
automated disease reporting systems, not to mention decreased staffing 
for surveillance and response as well as other important preparedness-
related activities. These diminished response capabilities in turn make 
the decision on how to respond to a BAR even more art than science.
    It should be pointed out that a laboratory positive is not the same 
as a public health positive, and the issue of false positives is likely 
to be a bigger issue with new autonomous detection systems with more 
cycles, more tests, and more results on an almost continual basis. A 
biodetector that has the capability to signal automatically a BAR or 
act as if it has somehow ``confirmed'' that very result without any 
human input or additional context (so-called red light/green light) may 
be appealing from a technology perspective, but from the public health 
perspective such a feature would take away the ability to engage in 
nuanced decision making. It is important to remember that the integrity 
of public health is critically important. How does the public view 
decision makers if we do launch or do not launch a response based on 
incorrect or incomplete information? What are the ramifications to a 
community if decision makers cancel events or move forward with them 
based on inaccurate sensor data systems alone? Our understanding of 
what a BAR means locally has even changed over time. Let me provide a 
clinical example to drive home this point.
    As a clinician, if I had a female patient who walked through the 
clinic door and I said to her, ``Ma'am, we have unfortunately found a 
spot on your mammogram, and without any additional testing, I am going 
to send you immediately for a total mastectomy (i.e., removal of the 
entire breast), based on that abnormal spot,'' immediately, my days as 
a physician would be numbered. That is the challenge here. What we are 
really trying to do is take that spot on a mammogram, figure out what 
other diagnostic and contextual information we need to put to the 
puzzle, and then figure out what to do with that information. In the 
IOM Workshop I referenced, one of my colleagues, Dr. David Persse said, 
``Two of the strengths that public health agencies bring to the table 
are their versatility and their ability to make decisions even when 
sufficient information is not available.'' Dr. Persse is an emergency 
medicine physician and the city of Houston's Public Health Authority, 
who serves as our local BioWatch Advisory Committee (BAC) chair.
    Ultimately the decision of how to respond to the release of a 
biological weapon must be a shared one but it must involve local 
decision makers front and center. Our communities, our residents, 
expect local governance and local decision making, which implies both a 
need for transparency and a need for local public health officials to 
help in managing the data from a networked system. Local Health 
Authorities (LHAs) are responsible for the lives of the people 
entrusted to them within their jurisdictions. Local (and State) 
officials must be given more input and information from Federal 
partners during the planning phase as well as the response phase as 
future programs are deployed. Any new technology must make public 
health more effective and not make it more difficult for these 
officials to make necessary decisions when time is of the essence.
         cooperation and information sharing with all partners
    From the beginning of BioWatch and the inception of a National 
response system after the 9/11 terrorist attacks, a priority has been 
placed on the need to form partnerships and acknowledge the role of 
local responders and to share information with all partners. This has 
been an important and accepted tenet within the program. Anything less 
than this is unacceptable, and we must continue this cooperation and 
information sharing.
    In 2012, President Obama released the National Strategy for 
Biosurveillance. He said at that time that this strategy `` . . . calls 
for a coordinated approach that brings together Federal, State, local, 
and Tribal governments; the private sector; nongovernmental 
organizations; and international partners. There exists a strong 
foundation of capacity arrayed in a tiered architecture of Federal, 
State, local, Tribal, territorial, and private capabilities. We can 
strengthen the approach with focused attention on a few core functions 
and an increased integration of effort across the Nation. In these 
fiscally challenging times, we seek to leverage distributed 
capabilities and to add value to independent, individual efforts to 
protect the health and safety of the Nation through an effective 
National biosurveillance enterprise. (https://
obamawhitehouse.archives.gov/sites/default/files/National_Strategy_for- 
_Biosurveillance_July_2012.pdf).
    I have spoken in front of Congress previously about the 
invisibility crisis of public health. I refer to this in the age of 
social media as the so-called ``hashtag Invisibility Crisis'' 
(#InvisibilityCrisis). Why? Well, despite the significant impact to a 
community's overall health and well-being, public health is largely 
invisible, under-appreciated, and as a result underfunded. This is 
further exacerbated when public health agencies are confused for health 
care. Most people operate in their daily lives without noticing that 
public health is there working to prevent diseases and address other 
concerns. Though the news may cover a measles outbreak, few tell the 
countless stories of public health responders who work to ensure the 
most vulnerable are vaccinated. Just this year as our Department 
confirmed a few cases of measles in our community, each identified case 
meant that our epidemiologists had to contact 100 persons for each case 
to ensure the protection of our community. The prevention of countless 
outbreaks seldom makes the headline. Public health is there day and 
night ensuring the health, well-being, and safety of the community. I 
say often that public health is like the ``offensive line'' of a 
football team--rarely recognized for the success of the football team 
but absolutely critical nonetheless.
    Whether intentional or not, one of the most import areas where 
public health is largely invisible to the public and other partners is 
in emergency preparedness and response. Everyone sees and knows the 
other first responders, such as police, fire, EMS, and even the 
National Guard, but many are unaware of public health's role in 
emergency response. All public health staff are trained and are a part 
of the National Incident Management System (NIMS) developed by the 
Federal Emergency Management Association (FEMA) to respond and prepare 
for large and small-scale disasters across the country. Local public 
health would respond and distribute antibiotics, vaccines, chemical 
antidotes, antitoxins, and other critical medical supplies from the 
Strategic National Stockpile (SNS) as the final interface between 
Government and its community members.
    This ``Invisibility Crisis'' problem has unfortunately led to 
funding cuts for public health and public health preparedness at every 
level of government at a time where our services are needed more than 
ever as we face incredible challenges in our public health sector for 
ensure the health, security, and well-being of our communities from a 
variety of emergencies. These funding cuts impact preparedness and our 
ability to respond to a public health disaster. We know another 
hurricane, wildfire, mass-shooting, disease outbreak, or even another 
terrorist attack may happen, yet preparedness and resiliency for our 
communities is still just not at adequate levels to protect us. We need 
a National response strategy that does not react to the latest disaster 
but one that is pro-active to build and maintain that necessary 
capacity on an on-going basis. All emergency events, including 
infectious disease emergencies, are ultimately local. An effective 
response that prevents illness and saves lives demands immediate 
attention. Local health departments, local health care providers, local 
emergency responders, and local government all work together to make 
this an every-day reality and are in the best position to exact 
immediate action for small- and large-scale events. They must be 
trusted partners for our Federal and State agencies and decision 
makers.
    Local public health departments deal with infectious diseases 
daily--our staff of epidemiologists and other key personnel are on-
call, 24 hours a day, 7 days a week, diligently monitoring disease 
patterns and looking for irregularities. In fact, the only way to 
recognize the unusual is to understand the normal. On a daily basis, 
public health staff members work with health care providers to conduct 
diseases surveillance activities. We communicate disease patterns and 
specific actions that are critical for disease investigation and 
disease control to the community. From an epidemiologist's point of 
view, you take away the name of the disease, and the response is the 
same--early detection of cases, contact investigation and control 
measures are all essential. They save lives. At our department, we have 
built capacity keeping the ``One Health'' approach in mind as we know 
that the intersection of the environment impacts all those who live in 
that environment, whether humans, animals, or even insects. This is 
vital as many of the agents of bioterrorism and nearly 75 percent of 
the newly-emerging infectious disease agents are zoonotic (animal-
related) in nature. (http://www.onehealthinitiative.com/publications/
One%20Health_ASMPoster.pdf)
    I applaud Congress and President Trump for passing and signing the 
Pandemic and All-Hazards Preparedness and Advancing Innovation Act 
(PAHPAI) earlier this year. PAHPAI reauthorizes the Public Health 
Emergency Preparedness (PHEP) grant program and the Hospital 
Preparedness Program (HPP) to keep our emergency preparedness 
infrastructure strong; strengthens the National Health Security 
Strategy, including global health security; and authorizes the Public 
Health Emergency Medical Countermeasure Enterprise, with a role for 
input from stakeholders, including local health departments. These 
measures must not just be milestones in time but lead to foundations of 
on-going capacity-building that should be maintained and strengthened 
over time.
                        cooperative partnerships
    As recently as 2017, National biodefense policy continued to 
emphasize cooperation between Federal, State, local, and territorial 
partners. Section 1086 of the National Defense Authorization Act for 
Fiscal Year 2017 (https://www.Congress.gov/114/plaws/publ328/PLAW-
114publ328.pdf) directs the Department of Defense (DOD), the Department 
of Health and Human Services (HHS), the Department of Homeland Security 
(DHS), and the Department of Agriculture (DOA) to develop a strategy 
for the United States response to biological threats. The National 
Biodefense Strategy (https://www.whitehouse.gov/wp-content/uploads/
2018/09/National-Biodefense-Strategy.pdf) was released on September 18, 
2018. The strategy lays out a clear pathway and set of objectives to 
counter threats effectively from naturally-occurring, accidental, and 
deliberate biological events. It is broader than a Federal Government 
strategy. It is a call to action for State, local, territorial, and 
Tribal (SLTT) entities, other governments, practitioners, physicians, 
scientists, educators, and industry.
    Moving the responsibility of biodetection and the authority 
previously within the U.S. Department of Homeland Security (DHS) Office 
of Health Affairs to the Countering Weapons of Mass Destruction Office 
is potentially concerning as it is a significant change from the U.S. 
history of biodetection in the aftermath of the 9/11 attacks. The 
director of the HCPH Office of Public Health Preparedness and Response 
(OPHPR), Mr. Michael W. ``Mac'' McClendon--who is with me here today 
and I might add along with the rest of our dedicated HCPH staff members 
has served admirably to protect our community from a variety of threats 
over the years--serves on a DHS Countering Weapons of Mass Destruction 
(CWMD) BioDetection 21 (BD21) workgroup.
    Earlier this year, locals were briefed on BD21 in Indianapolis at a 
closed workshop. I cannot say too much about this meeting except that 
we hope the concerns of locals have been heard and that appropriate 
steps to address these concerns including the importance of true 
partnership and the sharing of information bidirectionally is not 
forgotten. We know that problems with BD21 continue to appear in the 
press. (https://www.latimes.com/politics/story/2019-08-08/bipartisan-
lawmakers-seek-probe-of-controversial-bio-weapons-defense-system). The 
technology is not proven or vetted as of yet and has not been fully 
shared with local public health partners. It is hard for us to say more 
from a local level since we do not have additional information to base 
any such comments on. As per what we have read though, it appears there 
are concerns that an environmentally-based detection system could still 
have trouble with small pathogen releases in real-time, underground, or 
indoor releases, and may not detect previously-unknown organisms such 
as naturally-occurring mutant viral strains of genetically-engineered 
bacteria. On-going epidemiologic and zoonotic surveillance systems 
which rely on collective diagnoses, monitoring of the health and 
agriculture sectors looking for aberrant disease patterns, will always 
be needed for natural pathogens but have a role in detecting a 
terroristic attack as well.
                               conclusion
    Thank you for allowing me to testify today on this very important 
topic. I want to restate 3 main points:
    1. We all agree that emergencies occur repeatedly, unexpectedly, 
        and we must ensure that our communities are prepared for what 
        lurks behind the next corner. BioWatch and the next generation 
        of biodetection are important tools in the toolbox for decision 
        making but are not the only tools. Yet these tools must be 
        effective which means they must be science-based and must 
        equally evolve as the science and threats evolve. We must 
        continue to involve all Federal, State, local, and even global 
        partners. Even the DHS Countering Weapons of Mass Destruction 
        Office acknowledges that the current BioWatch Program 
        ``involves a large network of stakeholders from public health, 
        emergency management, law enforcement, laboratory, scientific, 
        and environmental health organizations around the country who 
        collaborate to detect and prepare a coordinated response to a 
        bioterrorism attack.'' (https://www.dhs.gov/biowatch-program)
    2. Public health at all levels of government is vital--indeed we 
        say that public health truly matters! Public health must be 
        invested in and capacity built because it is absolutely 
        critical to protecting our communities even when it is largely 
        invisible or forgotten (the so-called ``Invisibility Crisis''). 
        Public health is equally a crucial sector that must be well-
        equipped and trained to prevent, protect against, mitigate, 
        respond to, and recover from all incidents whether small or 
        catastrophic. Public health emergency preparedness is National 
        health security. Local health departments and local health 
        authorities should be notified and allowed to verify 
        independently a suspected sample and use medical and veterinary 
        surveillance and local intelligence of the community to help 
        make the call on the threat.
    3. There is a science and an art to public health and we must have 
        access and availability to as much information as possible 
        especially during a biological attack to make appropriate, 
        difficult, nuanced decisions on behalf of our community so 
        sharing of that information is critical. Beyond a certain 
        point, during a biological catastrophe, everything will depend 
        on sound public health decision making. Leaders will then have 
        to do the best they can with the resources they have at their 
        disposal to ensure the very health, safety, and security of the 
        communities for whom they are responsible. (https://
        biodefensecommission.org/wp-content/uploads/2019/07/Holding-
        the-Line-on-Biodefense.pdf)
    On behalf of Harris County Public Health, and the nearly 3,000 
local health departments across the country, I appreciate again the 
opportunity to testify today. We join you in strengthening a public 
health system that protects our economic vitality and National 
security. Thank you for all you do in building safe, healthy, and 
protected communities where we live, learn, work, worship, and play, 
across this great Nation of ours.

    Mr. Payne. Thank you.
    I want to thank all of the witnesses for their testimony. I 
will remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for questions.
    Dr. George and Dr. Rakeman, the creation of the Countering 
Weapons of Mass Destruction Office was intended to enhance our 
defenses against biological terrorists and increase 
coordination and cooperation in the WMD mission space. Has 
creation of CWMD improved our preparedness for a bioterror 
attack?
    Ms. George. Mr. Chairman, it has not. That office, 
unfortunately, has suffered from changes in the mission and 
goals and objectives for it since they started talking about 
creating it years ago--8 years ago, as I believe.
    When you don't have a vision, the people perish. We know 
this. But they seem to have just spun down worse and worse as 
the years have gone by, these past 2 years.
    You mentioned the morale survey earlier. But in addition, 
they just seem not to be able to accomplish any of the things 
that they set out to accomplish. BioWatch has not improved. 
NBIC has not improved. DNDO is beginning to suffer, and they 
have lost a great deal of personnel, specialists that used to 
address all of those issues.
    So I would say, no, it hasn't done what it was intended to 
do.
    Mr. Payne. Dr. Rakeman.
    Ms. Rakeman. I think also, with the creation of CWMD, 
biological agents have been lumped together with radiological 
and chemical agents and are being approached in the same 
manner, which is an issue. You can't approach biological agents 
and detection of biological agents the same way that you can 
for radiological and chemical. Radiological and chemical agents 
are either there or they are not. Biological agents require 
detecting a specific agent in a mix of lots of biology and 
biological agents. So approaching them in the same way does not 
work well.
    Mr. Payne. So can those agents lay dormant for periods of 
time?
    Ms. Rakeman. Well, it is trying to detect a very specific 
agent that you are concerned about in a world where we are 
surrounded by bacteria and viruses and things that are good for 
us and also bad for us. So being able to pick out a select 
agent in that mix is a very different approach than looking for 
whether or not sarin gas is present or not, for example.
    Mr. Payne. Yes. You know, I have been very critical of the 
BioWatch program. Actually, I finally ran across one of the 
units at the Democratic Convention. They had one in the parking 
lot. I walked by and, oh, finally--I finally saw one, so--but 
it has not been the most successful way to do this. It almost 
seems antiquated science, you know, from the fifties or 
whatever. With all of the advances that we have, it is really 
amazing that that is what we are stuck with at this point in 
time.
    Dr. George and Dr. Shah and Rakeman, all 3, CWMD is 
creating a new biodetection system to replace BioWatch--DHS's 
current system. This new system is called Biodetection in the 
21st Century, or BD21, and it is supposed to address the 
shortcomings of BioWatch.
    Is the technology behind BD21 mature enough to address the 
issue of BioWatch, and how has CWMD worked with local 
jurisdictions to develop BD21 and solicit requirements for its 
use?
    Start with Dr. Shah.
    Dr. Shah. Yes, thank you, Mr. Chairman, for that question.
    I think the challenge that we have is that we do not have a 
lot of information about this new system. So when locals, and 
State partners as well--but locals are in particular not a part 
of the planning process. We understand that there is sensitive 
information here, that we are not going to be able to get 
everything shared. But we do believe that there is an 
opportunity to work with locals throughout this planning 
process. Again, that is how we are going to know better what 
the system is, what its limitations are, and certainly how we 
are going to be able to respond effectively to it in the 
future.
    Mr. Payne. Thank you.
    Dr. Rakeman.
    Ms. Rakeman. I agree with Dr. Shah. We are not confident in 
the maturity of the technology that is being deployed. It is 
technology that has been used in a military setting, which is 
not appropriate for an urban center like New York City or other 
cities around the country. It generates a lot of false alarms, 
which is a problem.
    Locals have not been given really any data and very little 
information about the system and have not been pulled into good 
conversations about how to develop this process and make it 
work.
    So, again, it is a technology that is potentially being 
pushed on locals without any input. We have to respond.
    Mr. Payne. Thank you.
    Very quickly, Dr. George.
    Ms. George. Mr. Chairman, I would only say just two things. 
One is that the system is predicated on the notion that State 
and local folks would respond immediately to a trigger. But if 
they are supposed to respond, they ought to be included in the 
planning for the system in the first place.
    The other is that the DOD technology that is being tested 
was technology that was rejected by the Department of Defense. 
It did not test well in the operational field environment. 
While it is good for DHS to try and test anything it can, I 
suppose, in the domestic environment, it is not like it started 
out with great results, and DHS has been testing it. It is not 
mature.
    Mr. Payne. Thank you.
    I now recognize the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Dr. George, just out of curiosity. There is no need to get 
specific. You mentioned Senator Daschle. Have his staff members 
recovered? Because I remember for several years afterwards, 
they were--some of them were still, you know, pretty ill from 
that.
    Ms. George. Yes, sir, they have recovered. But one of the 
things--if Senator Daschle was here, he would tell you this--
that none of the people that were potentially or absolutely 
exposed to those letters were ever tracked going forward. 
Nobody paid attention to their health, other than their bosses, 
like yourself and Senator Daschle. There is no reason for that.
    The Department of Defense actually tracks people going 
forward if they have been exposed. I think it is a simple thing 
for the Department of Homeland Security to do now.
    Mr. King. OK. Thank you.
    Tell Senator Daschle I wish him the best.
    Dr. Rakeman, Chairman Payne and I, our districts are so 
close. With the PATH trains and Amtrak, what happens in New 
York can happen in Newark, and Newark can happen in New York.
    Does the city have the supplies necessary to counter deadly 
pathogens?
    Ms. Rakeman. So that is something that is a little bit 
outside of my area of expertise as a laboratory professional, 
so we can get back to you on that.
    Mr. King. OK. If you would, yes.
    Also, then, I guess, if the city has its own vaccine 
stockpiles, or do you have to rely on the Strategic National 
Stockpile?
    Ms. Rakeman. Again, we will get back to you on that.
    Mr. King. OK. To all of the witnesses, do you believe the 
Federal Government has successfully leveraged the private 
sector to increase bioterrorism defense?
    Dr. Shah. So let me just----
    Mr. King. Sure.
    Dr. Shah. Excuse me. Thank you for that question.
    Let me just start by saying that I think there are 
opportunities for working with, partnering with, and learning 
from private sector. I think there is a lot that we can really 
look at with respect to technologies, improving those 
technologies, but also in the distribution of medication 
supply, stockpiles, et cetera. So I think there are some things 
that we can learn better as a Federal Government.
    That said, this is an emerging area. This is also an area 
that has a number of unknowns that potentially can also be 
challenging. So I think the--you know, the proof in the 
pudding, if you will, is going to take some time for us to 
understand what better private companies might be able to--or 
private sector might be able to offer. But I think it is 
absolutely critical that the Federal Government does partner 
and explore all avenues to protect Americans.
    Ms. George. Mr. King, I would say, no, they have not. Of 
course, the Department as a whole has struggled with leveraging 
and working with the private sector. But in this particular 
arena, I would say it is very hard for the private sector to 
even be involved if the office itself does not actually issue 
requirements for the technology that it is trying to utilize. 
They don't know where to connect.
    It has been an unnecessary challenge, but I would also say 
it is not just about industry. Academia should be involved. 
Then you have your sort-of half-and-halfs, like the National 
laboratories. They are not involved as much as they could be or 
should be.
    Mr. King. Dr. Rakeman.
    Ms. Rakeman. I would agree with both of my colleagues on 
the witness panel here and also add that, again, more 
transparency and interaction with even local jurisdictions as 
well as industry partners, National partners. All of us are on 
the same team. All of us are looking to protect the health of 
Americans. If we get all of our heads together, that is going 
to give us the best result at the end of the day.
    Mr. King. Going back to Dr. George. Parenthetically--and 
this goes beyond this particular issue. I know one concern we 
have had for years is DHS has not worked with the private 
sector, for instance, to the extent that the Defense Department 
works with the private sector. In many ways, it should be 
mirror images of each other.
    So--I guess--assume it is a deficiency, but especially in 
this regard. But as you are saying, unless the guidance is 
coming, it is hard to make use of the private sector.
    With that, Mr. Chairman, I yield back.
    Also thank you all for your testimony and your service. We 
appreciate it. Good seeing you again.
    Mr. Payne. Thank you, sir.
    We now recognize the gentlelady from Illinois, Ms. 
Underwood.
    Ms. Underwood. Thank you, Chairman Payne.
    Before being elected to Congress, I was honored to serve as 
a senior advisor to the assistant secretary for preparedness 
and response at the Department of Health and Human Services, 
and while at HHS, I had the opportunity to work on public 
health response and recovery efforts involving emerging 
infectious diseases, natural disasters, and bioterror threats.
    From my time working as a senior advisor to the ASPR and my 
work with BARDA, the Biomedical Advanced Research and 
Development Authority, I appreciate their evidence-based whole-
of-community approach to planning, response, and recovery 
efforts, including in determining which threats to prioritize 
for development of medical countermeasures like vaccines, 
therapies, and diagnostics. I have seen first-hand how ASPR 
coordinates with CDC and local public health agencies on 
deployment and education.
    After reviewing the testimony, your testimony, for today's 
hearing, it seems that there is room for closer coordination 
between the Department of Homeland Security, local law 
enforcement, and local public health departments.
    So my question is for Drs. George and Shah. HHS also plays 
a critical role in protecting and promoting public health. As 
DHS seeks to protect the country from the threat of 
bioterrorism, they should ensure that they are coordinating 
with HHS.
    In your view, what could be done to strengthen that 
coordination?
    Ms. George. Well, one thing I would like to mention are the 
material threat determinations that DHS is supposed to be 
producing and sending over to HHS for them to respond to, with 
BARDA's actions and others.
    It currently takes the Department of Homeland Security up 
to 2 years to produce one of these things, which is way too 
slow for the actual threat stream, which means then that BARDA 
has to sort-of rush on its own with whatever information it can 
get.
    So that should work better. If DHS can't produce one of 
those determinations in less than 2 years, then we need to come 
up with something else. Otherwise, you are going to 
automatically have siloed efforts going down the pike.
    Ms. Underwood. Thank you so much.
    Dr. Shah.
    Dr. Shah. Yes. Thank you for that question.
    My humble opinion is that a lot more can be done. I have an 
incredible amount of respect for Department of Health and Human 
Services, ASPR, as well as CDC. They do an incredible job. They 
support hospital systems. They certainly support local public 
health departments, State public health agency, just an 
incredible amount of work that goes in. There seems to be a lot 
more of that cooperative agreement, a cooperative 
understanding, a sharing of working together with, partnering 
with, and really leveraging the expertise and knowledge of 
local, States, Tribes, territorial, as well as private-sector 
hospitals, et cetera, et cetera, all coming to the table.
    That doesn't seem to be happening the same way with DHS. So 
I think just the fact that learning from each other and how HHS 
is able to share with locals, I think that is an important.
    But I do want to also point out that we recognize again, as 
I said earlier, that there are sensitivities in a biodetection 
program. But there is also a trust that should be engendered 
with local public health officials that we also are a part of 
that spectrum.
    So some--and oftentimes we are then put into the category 
of: Well, they are locals, they don't get it, they are not 
smart enough, or they are just not--we can't trust them enough 
with this sensitive information, and so, therefore, it is just 
not shared with us. That is--that is a terrible mistake.
    Ms. Underwood. So would you characterize there have been an 
improvement since the Countering Weapons of Mass Destruction 
Office is now housing the health care aspects at DHS, or would 
you say that there has been really dissemination of that 
relationship over at DHS?
    Dr. Shah. It is difficult to tell. But I will say that we 
have noted that there was an earlier meeting, as you saw in my 
testimony earlier--meeting in Indianapolis where locals did 
share concerns with DHS and CWMD about the sharing of 
information, really working together. We are hopeful that that 
is going to start to show results. But that was the concern 
that was really articulated, is that you have got to work with 
Federal partners, Federal agencies across the spectrum, and 
also work with State and local agencies. So certainly that is a 
perspective.
    I think it is also important to say: Look, law enforcement 
and security oftentimes have different perspectives. Not that 
they are wrong, but different perspectives than health. So we 
have to really bring together both parts of the equation in 
order to be successful to protect our communities.
    Ms. Underwood. Well, one of the things that we are 
considering, and certainly with feedback from the office of 
CMO, the chief medical officer, is trying to make sure that 
they have the authorities that they need in order to do their 
important work. It appears that in this reorganization, some of 
those authorities have been stripped away or require additional 
levels of bureaucracy in order to execute the mission. So, as 
you-all may have some ideas or feedback about how sure to 
structure that, please be sure to pass that on to our office.
    With that, I yield back. Thank you.
    Mr. Payne. Thank you.
    I now recognize the gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you, everyone, 
for being here.
    I will start with a general question, which is, as we say 
in the military, we have the most likely threat and the most 
dangerous course of action or threat.
    For all 3 of you, what would you perceive to be the answer 
to both of those questions? The most likely threat that we 
face, I would say, so I guess the easiest way for someone to 
attack us, and the most dangerous potentiality that you might 
see.
    Start with Dr. George.
    Ms. George. Mr. Crenshaw, I think the most likely is a 
terrorist attack or a small-scale nation-state attack utilizing 
biological agents probably already weaponized. I think the most 
dangerous course of action----
    Mr. Crenshaw. Can you dig into that a little bit more? How 
would they do that? So what are our most vulnerable points in 
our society, if they were to--you said weaponize a biological 
agent. But if you were to take a quick look at our 
infrastructure right now, what would you say is the most 
vulnerable?
    Ms. George. OK. So I am former military, too, so I am going 
to answer that question with a military answer.
    So you have to look and see what is going on throughout the 
Nation right now. As a military person, if we were going to 
attack somebody else, we would look for vulnerabilities. But we 
would also look to see where are different critical 
infrastructure sectors or whatever is the most busy.
    So places like New York and other metropolitan areas and 
rural areas that are currently struggling with naturally-
occurring diseases are already taken up and responding to some 
kind of crisis. If you add in the naturally-occurring disasters 
and such, now you have another layer.
    So, if you are going to attack with a biological weapon of 
any sort, or a biological agent, you are going to go to those 
places, which are very obvious on a map and attack there.
    In terms of--in terms of weaponizing things, weaponizing a 
biological agent is not the most technically difficult thing in 
the world to do. It is made even easier when you get your hands 
on already-weaponized material from the former Soviet Union and 
other places like that. I would suggest to you that getting 
their hands on that material or producing it and then bringing 
it over here would not be that difficult.
    Mr. Crenshaw. OK. You mentioned New York City. Dr. Rakeman, 
if you could answer that, you know, what are your 
vulnerabilities in New York City? What do you see?
    Ms. Rakeman. So I think one thing as a Nation that we need 
to be very careful about is maintaining the public health and 
health care infrastructure, because that is what we need in 
place to be able to detect and respond to any biological 
incident, whether it is an intentional attack or a naturally-
occurring outbreak.
    So making sure that we have stabilized funding and 
infrastructure in place, a laboratory that works and we have 
the right instruments and we can get the right reagents and get 
a test up and running very quickly in an emergency is really 
critical and sort-of keeping that going. We have been in a 
place where we sort-of fund our lab and buy new instruments and 
things from emergency to emergency rather than having things 
ready to go every single moment. We need to be able to do that.
    Mr. Crenshaw. Do you have that now?
    Ms. Rakeman. So we did get a large influx of money after 
Ebola. That helped us actually, in one instance, in the Public 
Health Laboratory replace aging biosafety cabinets that were 
initially purchased with money that came after 9/11 and the 
Anthrax attacks.
    Mr. Crenshaw. Dr. Shah.
    Dr. Shah. Sure. I actually really like that last answer, 
Congressman. What I--and as I said in my testimony, I really 
think one of the challenges is that we have this invisibility 
crisis, that we are really behind the scenes.
    Because we are behind the scenes, oftentimes there isn't 
the visibility, which then drives value, and when you have 
value, you have validation by either pro-health policies or 
pro-health funding. That is not happening.
    So what happens is, we are behind the scenes, people don't 
see what we are doing, so we don't get that investment that you 
get with the bells and whistles of a police car or hospital or 
an emergency department physician. You start to really have a 
value proposition that goes into, well, public sector, public 
health, or even what is happening at local public health 
agencies, that is not as critical.
    But surveillance systems, epidemiological systems, working 
with our hospitals, the technologies, those are 
vulnerabilities. So to answer your question, those 
vulnerabilities translate to if somebody is really looking at 
all of this and then you pepper this with Federal partners not 
sharing with local partners, now you have a state of either 
not-as-good capacity or you have a state of confusion when you 
actually have a release. I think that is our biggest 
vulnerability.
    Mr. Crenshaw. OK. So, if I understand in summary what you 
all are saying, you are not as concerned about whether they 
come through the water or they send a sick person through an 
airport. You are concerned more about our ability to respond to 
any of those events?
    Dr. Shah. To detect and respond, that is right.
    Ms. George. We are--our Commission is as concerned about 
the scenario you just laid out as with the ability to detect.
    Mr. Crenshaw. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Mr. Payne. Thank you. Before I recognize the next Member, I 
now ask unanimous consent to allow Congresswoman Sheila Jackson 
Lee to sit and question witnesses at today's hearing.
    Without objection, so ordered.
    I now recognize the gentleman from Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman. Thank the 
witnesses for appearing. I am going to acknowledge the presence 
of Dr. Shah from Harris County. Greatly appreciate your work 
over the years.
    Let me start with the concept that we have to embrace of 
CWMD, replacing BioWatch with the BD21 system.
    The question has to do with the triggers. The triggers that 
are proposed, it seems, may not be as sensitive as we would 
have them be.
    Can you give me some intelligence on how these triggers 
will perform, in your estimation, if you have such?
    Dr. Shah. Thank you, Congressman. Great seeing you again 
today.
    I am going to defer the scientific aspects to my 
colleagues. But what I would like to say is that one of the 
concerns that we had initially with the BD21 was that it seemed 
to skip a step when it came to locals being involved in even 
knowing that something was happening that was abnormal.
    That was a very big concern that, for example, we in 
local--and you know our local governance, our Judge Hidalgo, 
our emergency management, and our entire structure at the 
county, as well as with Mayor White and--Mayor Turner and all 
of our colleagues at the city of Houston. There is an 
incredible infrastructure of local strength.
    What we didn't want to have happen is that in the middle of 
something being detected, our Federal Government partners were 
finding out first, and we weren't even aware that something was 
happening. We are hopeful that that has changed, but that is 
one of the big concerns that we had.
    Then I will defer to my colleagues on the triggers piece.
    Mr. Green of Texas. Thank you.
    Ms. Rakeman. I think one of the major concerns we have with 
BD21 and our interaction with CWMD and DHS on this project is 
that we haven't really been given any information; we have no 
data on how the anomaly detection works, how well it performs. 
Again, we are being asked to start to think about developing 
CONOPS and response plans for this system without knowing 
anything about its performance characteristics.
    Ms. George. Mr. Green, from what we have been told, there 
isn't reliability and validity data on any of the detectors 
that are being tested as part of BD21, No. 1.
    No. 2, it depends on trying to set some sort of normal 
baseline for whatever is going on around those detectors, and 
then eventually getting to the point where you could identify 
an anomaly.
    The problem is, most of these detectors aren't set up for 
that sort of thing, No. 1. No. 2, the Department that is trying 
to do this, the Department of Homeland Security, hasn't been in 
the environmental airborne detection business for that long.
    If you are going to look at the background anyplace and 
look at things like pollen counts and air quality, you are 
going to go to EPA or some other department. So they don't even 
have that sort of history--historical background to use with 
the system.
    Last, I would tell you that we have heard that the BD21 
detectors go off at least 1 time a day, wherever these 12 have 
been deployed thus far. They go off, but nobody knows what to 
do about it because they didn't get in place with a good 
concept of operations in the first place or any direction to 
the State and locals or any of the other Federal departments 
and agencies like the FBI and DOD that might have to respond.
    Mr. Green of Texas. Next question. With the current 
BioWatch system, have you been privy to an actual testing of 
the system where you actually see it function so as to 
determine the efficacy?
    Ms. George. I have never seen such a test done since its 
implementation. The last time I saw BioWatch or BioWatch-
related technology being tested, physically being tested, was 
back when the original technology was rolled out for the Salt 
Lake City Olympics. One of the National labs actually produced 
the BASIS detector. I have not seen since then.
    Dr. Shah. What I would just add is that, as you know, 2003, 
Houston was the first BioWatch hit in the country. We have 
learned a tremendous amount since then. However, I will say, 
with the bacterium that was discovered at that time, we were 
being told that this is an active intent or terror immediately, 
regardless of what was happening, and turned out over time 
learning that it was really naturally-occurring bacterium.
    That is a big challenge. This is why it is not just the 
science of the biodetection. It is the art of public health 
coming together and really putting all of that intel together 
to make decisions.
    Mr. Green of Texas. Thank you very much, Mr. Chairman. I 
yield back.
    Mr. Payne. Thank you.
    I now recognize the gentleman from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Dr. George, you state in your report that the Bipartisan 
Commission on Biodefense in October 2015 presented findings and 
recommendations to this committee. You state in the report that 
you made 33 recommendations, and then you later, on page 2 of 
your report, state that 4 years after the release of the 
initial report, the Nation remains unprepared for bioterrorism 
and biological warfare with catastrophic consequences.
    My question to you is, of those 33 recommendations that 
were made some 4-plus years ago, what progress has been made to 
make sure that those recommendations are being carried out?
    Ms. George. Thank you, Mr. Guest.
    Some of our recommendations have been taken up. We had 33 
recommendations and 87 associated action items. Of those, I 
would say about 17 have been taken up by Congress in various 
pieces of legislation, the reauthorization for the Pandemic All 
Hazards Preparedness Act, the farm bill, the National Defense 
Authorization Act and others.
    In terms of actual execution, however, I would tell you 
that the third recommendation for a National biodefense 
strategy has been completed. The Trump administration released 
that last year, and they are in the process of implementing it. 
Other activities have been taken up by the Federal Government 
itself without legislation or the White House having to push 
them to do it.
    Strides are being made in terms of biological attribution, 
in terms of addressing the one health concept of animal, 
environmental, and human health all coming together.
    The State Department has taken some forward steps in terms 
of addressing the biological weapons convention requirements. 
The Judiciary Committee here has been working on strengthening 
the law to make the possession of biological agents and working 
with biological agents more of a criminal activity.
    Mr. Guest. So, from your answer, roughly half of those 
recommendations, there has been some action on? Would that be 
correct, Dr. George? I think you said 17. Did I get that number 
correct?
    Ms. George. I would say probably 10 percent.
    Mr. Guest. Oh, only 10 percent?
    Ms. George. Yes.
    Mr. Guest. All right. Of those that have--those 
recommendations that we have not yet taken action on, which of 
those do we need to give the highest priority to?
    Ms. George. Gosh, I think this issue of biodetection 
certainly is a high priority. I think that our recommendations 
on preparedness for the public health and health care 
communities are also high priority.
    I believe we need a stratified hospital system so that we 
know where to send patients, wherever those patients might find 
themselves. We can't assume that everybody who is going to 
become ill from a biological agent is conveniently going to be 
around the 4 or 5 Ebola treatment centers that we have right 
now.
    Mr. Guest. Let me ask--you also talk about in your report--
you mention North Korea and Russia, that they continue to 
develop biological weapons. You say China will invest, between 
2015 and 2020, $12 billion in biological innovations. You also 
mention Iran and terrorist organizations.
    As it relates to terrorist organizations, you talk about 
different biological agents, including anthrax. Where would a 
terrorist organization most likely obtain a biological agent? 
Would they manufacture those themselves? Would they be obtained 
from a country, such as Iran or North Korea? Based upon your 
expertise in this area, is it more likely that they will 
internally be able to produce a biological agent, or would they 
be more likely to partner with North Korea, Iran, China, 
Russia, one of the nation-states that currently are producing 
and possess biological weapons?
    Ms. George. Sir, I think it depends, honestly. It depends 
on the terrorist organization and the resources that they have 
available to them. If they can, if they have the resources, if 
they can get them and they can get the scientific expertise, 
they will try and produce them themselves, because that would 
just be easier logistically.
    Otherwise, you would have to determine whether those 
organizations have a relationship with the countries you just 
mentioned, or whether they are able to tap into the black 
market, and somehow get already weaponized material out of the 
former Soviet Union and other countries like that, and bring--
and just already have weaponized material at their disposal.
    Mr. Guest. One last question, ma'am. I know my time is 
running short.
    In previous meetings and reports, the Commission has 
highlighted the importance of partnering with the private 
sector.
    Can you provide examples of how the private sector, 
specifically the medical countermeasure manufactures, have 
partnered with the U.S. Government and ways in which we can 
improve this public/private partnership in which we are working 
together to keep the American public safe?
    Ms. George. Sir, I think where it has worked best is when 
the U.S. Government has been very clear on its requirements, so 
that the private sector knows what it is responding to.
    A great example would be what happened with Ebola. We had a 
very--the industry had a very specific disease it was going 
after. It knew where various locations were at. The Department 
of Defense, the Department of Health and Human Services, and 
others, were very clear on what it is--what it was they were 
looking for.
    So now you can see today, we don't just have one vaccine, 
we have got all kinds of things happening now, because they 
knew what they were shooting for.
    Mr. Guest. Thank you.
    Mr. Chairman, I yield back.
    Mr. Payne. Thank you. I now recognize the gentlelady from 
Texas, Ms. Jackson Lee.
    Oh, I apologize, sir. We will now go to the gentleman from 
New York, Mr. Rose. I apologize.
    Mr. Rose. Thank you, sir. No need for an apology.
    Dr. Rakeman, thank you for your service, first of all, to 
New York City.
    Are you familiar with the unit at Fort Hamilton Base that 
moves to major sites, whether it is the Thanksgiving Day parade 
or whatever else it might be, that has biodetection technology?
    Ms. Rakeman. I am not. I can get back to you with more 
information----
    Mr. Rose. OK. Well, this unit does exist, and they do 
certainly move from----
    Ms. Rakeman. CST unit?
    Mr. Rose. What is that?
    Ms. Rakeman. CST unit, Civil Support Team?
    Mr. Rose. Yep. So my concern is, is that when they are on-
site, they have basically detection technology there, and it 
takes about an hour to determine if something is hazardous or 
not.
    In the event that that CST unit is not on-site, let's say 
U.S. Open, whatever other large-scale event in New York City, 
what is the time that it takes from identifying whatever it 
might be to actually having a confirmation that it is 
hazardous?
    Ms. Rakeman. So using the BioWatch system, which, in New 
York City, can be deployed and is often deployed at big special 
events, such as--I am sorry--the New York Yankees games, things 
like that, and events like the U.S. Open, we will--the city 
will deploy PSUs to those.
    Mr. Rose. A PSU is?
    Ms. Rakeman. A portable sampling unit, the unit that is on-
site that actually draws in the air sample.
    Mr. Rose. They have the same technology as a CST?
    Ms. Rakeman. The CST technology is not something that I am 
particularly familiar----
    Mr. Rose. Dr. George, do you want to add anything to this?
    Ms. George. No, sir. It is different technology.
    Mr. Rose. How is it different?
    Ms. George. I can't tell you that, sir. It is just 
different technologies, actual different pieces of equipment.
    Mr. Rose. Is it worse? Is it better? Is it--I mean----
    Ms. George. I don't have that data, sir. I would have to 
talk to DOD.
    Mr. Rose. So PSUs, you said, right?
    Ms. Rakeman. It is BioWatch testing. So then the filter 
would come back the Public Health Laboratory and be tested.
    Mr. Rose. So the PSUs don't--can't test it on-site?
    Ms. Rakeman. No. No, all BioWatch testing samples----
    Mr. Rose. So what do they do then?
    Ms. Rakeman. So they are collected by our partners in the 
field----
    Mr. Rose. OK.
    Ms. Rakeman [continuing]. The filters, they come back to 
the laboratory, and we process and test those samples at the 
laboratory.
    So in New York City, depending on where the sampler is--and 
if it is a special event, the sampler will be operational for a 
period of time, up to 24 hours. It could be less. So an attack 
may have occurred 24 hours prior to when the sample is 
collected. Then that sample needs to be transported to the 
laboratory, processed and tested, and that takes a number of 
hours as well.
    So the window between when something may have happened and 
when we actually have a positive BioWatch actionable result in 
the laboratory can be over 24 hours, up to 36 hours.
    Mr. Rose. So what is our right now--first of all, is that 
OK, 36 hours, in terms of the time line? Is that too long? It 
seems to me that that is too long.
    Ms. Rakeman. The goal for biodetection, and one of the 
goals of the BD21 program, is to shorten that time to 
detection. That is something is that we definitely support.
    Mr. Rose. What would you like to shorten it to?
    Ms. Rakeman. Well, to pick up an attack, to be able to save 
lives, hours count. So as short as that window can be, the 
better it is.
    Mr. Rose. So, Dr. George, what do you think it should be?
    Ms. George. You know, sir, the right answer to this is it 
should be immediate or near-immediate.
    The reason she is saying that it is taking so long is 
because those--what is happening with the current BioWatch 
system is that it is just a system of filters that is filtering 
air and somebody has got to test it. The system itself is not 
testing it.
    So if you have better handheld detectors that could 
identify something quickly and with valid and reliable results, 
or you had better detectors or whatever----
    Mr. Rose. That technology exists?
    Ms. George. Technology exists, but it is--but none of that 
technology is perfect yet. So all of it requires gold standard 
testing back in a laboratory as of right now.
    Dr. Shah. That was a key. The key message is that it is the 
confirmatory test. You certainly don't want to launch a 
response when you don't have the confirmation.
    Ms. Rakeman. The tests deployed need to be good, reliable 
tests.
    Mr. Rose. But we do have the technology right now for 
mobile laboratories, correct?
    Dr. Shah. Well, and I will----
    Mr. Rose. Does that technology exist?
    Dr. Shah. I will defer, but we do--we still--the mobile 
does not have the confirmatory component.
    Mr. Rose. OK.
    Dr. Shah. So it still requires you going back to a public 
health laboratory or response network laboratory to actually 
confirm.
    Mr. Rose. Well, but, right now in New York City, based off 
our SOP with the NYPD, obviously we would evacuate a site once 
there was any level of confirmation, correct?
    Ms. Rakeman. So if we had a full BioWatch actionable result 
that we determined--and me, as the laboratory director, is 
responsible for determining whether our result is valid, which 
is--then the response would happen. That is something that we 
partner with NYPD to determine----
    Mr. Rose. So right now, if you found something in Grand 
Central Station, and I am sure this has happened before, and 
you send it to the lab, takes 36 hours. So really, what New 
York City policy is right now, is that we find something that 
is potentially hazardous, we wait 36 hours before evacuating?
    Ms. Rakeman. No. So it might take 36 hours to determine 
whether there is a reason to go back and do follow-up sampling, 
to determine whether there was a true agent in that facility at 
that site.
    Mr. Rose. So how long does that take?
    Ms. Rakeman. Well, then that can add on more hours.
    Mr. Rose. So basically, I am asking, how many hours does it 
take for us to find out whether this stuff kills people? Do you 
have a number for that?
    Ms. Rakeman. I don't have a number for that. We can get 
back to you. We would have to talk about the entire system and 
work with all of our partners to come up with that number.
    Mr. Rose. Who is in charge of that entire system in New 
York City?
    Ms. Rakeman. There are multiple city agencies that work----
    Mr. Rose. There is not one person in charge?
    Ms. Rakeman. No.
    Mr. Rose. So there is not one person in charge in New York 
City right now of managing a biohazard response?
    Ms. Rakeman. So there is a public health piece to the 
response that the health department is responsible for. There 
is a law enforcement response that the law enforcement teams 
are responsible for.
    Mr. Rose. OK. So we have some interesting questions here, 
because I am a simple guy. I just want to know that we can 
quickly get people out of large areas by quickly finding out 
that there is a hazardous item there.
    Mr. Payne. The gentleman's time has expired, and if we can 
come to a second go-round, we can get back to that.
    Mr. Rose. Thank you.
    Mr. Payne. I recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, let me thank you for your 
generosity and kindness for allowing me to sit on a very 
important panel for a committee that I have invested my 
legislative career, the Homeland Security Committee.
    But I want to thank you particularly for your well-suited 
leadership on this committee. I look forward to working with 
you and being a problem-solver for some of the very issues that 
these very fine witnesses are espousing, particularly in the 
FEMA overhaul.
    One of the things that we are stifled by is the structure 
of funding from the Federal Government, the Stafford Act. For 
those of us who have experienced disasters, Hurricane Sandy, 
you saw it first-hand, your local folk coming out of City 
Council--I came out of City Council--your local folk needed 
their resources and they knew what they needed to do.
    So, my line of questioning will be to these witnesses on 
that very order. But as I do so, I would be remiss not to speak 
about my friend, Dr. Shah, who has responded to all of the 
public requests that I have made dealing with public health. 
Let it be very clear that we have worked together on public 
matters. I am reminded of the Zika virus and the work and the 
promptness and the astuteness that Harris County Health engaged 
in. Dr. Shah is a collaborator with the Houston City Health 
Department. We worked on Ebola. No, the first case was not in 
Houston, it was in Dallas, but we were well recognizing, as the 
rest of you were, that we needed to be on point, because Ebola 
took to the flight, aviation system, and people were traveling.
    We worked on this question that doesn't get you a lot of 
fans, and that is about supporting vaccinations. When we were 
having a moment in our community wherein people seemingly were 
rejecting the value of vaccinations, that is a public health 
scenario.
    For example, one does not know if those untoward Russian 
bots could influence people, let's don't get vaccinated. We 
know what will happen. We had a measles outbreak in a number of 
places. Then, of course, the idea of gun violence.
    So let me make some pithy questions. Yes or no. I want to 
get back to Dr. George, and I want to thank her for her 
service. I want to thank her for the 2014 report that you 
worked on so diligently.
    Just give me--has the Government responded to that report 
and some of the valuable aspects of it?
    Ms. George. Yes.
    Ms. Jackson Lee. In its totality or portions thereof?
    Ms. George. Portions thereof. I think----
    Ms. Jackson Lee. Tell me where we could get in there in a 
better way for some of the----
    Ms. George. I think where Congress could act would be to 
take--take those activities they are halfway through and push 
them, show some interest and----
    Ms. Jackson Lee. Give me one activity to push through?
    Ms. George. Well, I think--BioWatch is the topic of today. 
I think BioWatch would be one that could be pushed.
    Ms. Jackson Lee. That we need to profoundly try to refine 
and define and make it work?
    Ms. George. Yes, ma'am.
    Ms. Jackson Lee. You also--someone said the BD21 has data 
that you haven't discerned whether it is reliable. Is that 
accurate?
    Ms. George. Correct.
    Ms. Jackson Lee. So that is certainly a part of our work 
that we really need to encourage and work with the private 
sector. We need to refine the reliability of that data?
    Ms. George. Correct.
    Ms. Jackson Lee. To both--I am going to go to Dr. Shah 
first, but let me ensure that Dr. Rakeman--see if my glasses 
are working--can ask, in your leadership. But you made a very 
important statement that the bells and whistles of public 
health are not conspicuous. If you are working on Zika, maybe 
the neighborhood of which you may be doing the complementary 
mosquitoes spraying, which is another agency, but you work with 
them to do what they are supposed to be doing, is not a real 
bell and whistle, unless somebody is looking out their window 
at about 9 at night.
    But there are other aspects of public health that you are 
working on, and, therefore, when it comes to funding, you may 
not be in the forefront.
    Tell me how devastating that is and how we need to change 
the Federal construct that you--that we are dealing with so 
that public health, particularly in bioterrorism, can be front 
and center? Dr. Shah and Dr.----
    Dr. Shah. Sure. Thank you, Congresswoman, for your 
leadership and your support of public health. We really 
appreciate that. Your on-going support is critical to what we 
are wanting and trying to achieve in our local community. So 
thank you.
    I think that the real rub of this is--at the end of the 
day, is to ensure that locals are a part of that planning 
process. I mean, emergencies happen in local communities, local 
governments, local responders, local partners, local community 
members who are impacted. We want to make sure--and you 
highlighted many of those issues that have occurred in our 
community, but also the vast number of emergencies that the 
Houston/Harris County and southeast Texas, as well as Texas 
throughout has had, in terms of emergencies over the years.
    We have to ensure that that experience is respected by our 
Federal partners, that it is not that the Federal partners know 
it all, and they simply say, You know what? We are going to 
tell you exactly how this is going to happen. It should be a 
cooperative partnership. That is not always happening, and I 
think that is the concern.
    Ms. Jackson Lee. Doctor, would you respond?
    Thank you, Dr. Shah.
    Ms. Rakeman. Thank you. I like Dr. Shah's hashtag of 
invisibility crisis. Because that really is something that is 
an important aspect of what we do in public health. Our job is 
to keep people from getting sick. To sort-of put that on a 
banner, puts lights and sirens around that, is very difficult.
    So, making sure that State and locals--local governments 
are part of the conversation when it comes to things like 
funding or programming is very important, because what we do 
needs to have infrastructure and that needs to be there always. 
We don't know when the next outbreak is going to happen. We 
don't know when the next crisis will occur. But if the 
infrastructure is not there ahead of time, then we can't 
respond.
    Ms. Jackson Lee. Let me quickly ask you this:
    You heard me talk about the construct, which is Federal, 
State, and then maybe--would it be helpful that if we had a 
definition of a crisis, an emergency, a natural disaster, a 
man-made disaster, that you are getting a direct emergency 
infusion of dollars? Would that be helpful to you all as 
leaders in your community on health care?
    Ms. Rakeman. Yes.
    Ms. Jackson Lee. It would be defined to the particular 
incident, or the definition of incidents, that would occur that 
would be able to direct moneys directly to those local 
agencies.
    Dr. Rakeman.
    Ms. Rakeman. So getting funding to local agencies is very, 
very important. Funding that is, particularly for emergencies, 
is important and necessary.
    What can be hampering is if funding dollars are tied to 
specific events and that we can't use them for other things, 
because building that infrastructure is important. The same 
instrumentation we use in the laboratory to test for a food-
borne outbreak is instrumentation we use to test for Zika or to 
test for Ebola.
    So having all of that there and being able to spend the 
money in the way that makes our work most efficient and makes 
us most nimble is really critical.
    Ms. Jackson Lee. We would listen to you in how that would 
be designed.
    Dr. Shah.
    Dr. Shah. Yes. As you know, it is not an either/or. It is 
not just the emergency funding coming. It is really building 
that capacity throughout. So you have higher level of capacity, 
and so, you don't have to stretch as much when you have a surge 
in an emergency.
    But I think as you also know, Congresswoman, there is also 
that concern about looking at how Federal agencies really send 
those dollars down to local partners, local health departments, 
and insuring that it is not just going, for example, to a city 
core, but really, it is looking at all of the risk threats and 
all of the community members that are potentially in Houston/
Harris County, where you have 2.2 million that are within the 
city of Houston, but you have 2.5 million outside the city of 
Houston, also looking at a whole-community approach to that 
funding.
    So I think looking at funding streams and funding formulas 
is absolutely critical so that we can get this correct.
    Mr. Payne. OK.
    Ms. Jackson Lee. I know my time is long spent, Mr. 
Chairman.
    Thank you to the witnesses.
    As I close, may I just have a letter of collaboration from 
the city of Houston? May I just extend a question that we can 
work on? Part of their issue is being blocked from getting 
information because of it being Classified--as Classified or 
they are not at that level. So I think this is a very perfect 
entity to work on solving some of those structural problems, 
funding problems----
    Mr. Payne. Yes.
    Ms. Jackson Lee [continuing]. So that we can fight this war 
of bioterrorism.
    Thank you. I yield back, Mr. Chairman, for your courtesies, 
thank you.
    Mr. Payne. I would like to ask unanimous consent to enter 
into the record the Bipartisan Report of the Blue Ribbon Study 
Panel of Biodefense from October 2015.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is also 
available at https://biodefensecommission.org/reports/a-national-
blueprint-for-biodefense/.
---------------------------------------------------------------------------
    I want to thank all of you for your testimony.
    Ms. Jackson Lee. I am sorry. Mr. Chairman, did you get this 
one, too, the letter that I offered on unanimous consent to 
be----
    Mr. Payne. Without objection.
    [The information referred to follows:]
                    Letter From the City of Houston
                                  October 17, 2019.
Congresswoman Sheila Jackson Lee (TX-18),
2079 Rayburn HOB, Washington, DC 20515.
    Dear Congresswoman Jackson Lee: We are writing to brief you on the 
current efforts that the city of Houston (COH) has under way to be 
prepared for a Bioterrorism event. We have strong relationships between 
the Houston Health Department (HHD), Houston Emergency Medical 
Services, HazMat teams, Emergency Management, health care, and law 
enforcement agencies, both Federal and local. Our efforts include 
drills, surveillance and laboratory capacity.
    In October, we will be conducting an exercise to develop our mass 
dispensing capability for antibiotics that would be issued in the event 
of an anthrax event. That day-long exercise includes multiple Point of 
Dispensing sites (PODs) to dispense antibiotics and reassignment of COH 
employees to staff the exercise, In 2018, we worked with the U.S. 
Postal Service to conduct an anthrax tabletop at the main Houston 
postal distribution center.
    During the current baseball playoffs for the Houston Astros, COH is 
conducting enhanced syndromic surveillance and laboratory testing for 
any possible bioterrorism incidents, The effort includes syndromic 
surveillance of emergency room complaints and laboratory surveillance 
for bioterrorism agents.
    We are also aware of the risk that illegal drugs potentially pose 
both as a risk to the community and as potential bioterrorism agents. 
COH has just competed for and been awarded a Department of Justice 
award to implement OD Map, a tool to track opioid overdoses.
    Early in 2020, COH units, including public health and the water 
department, will partner with the Environmental Protection Agency and 
the Houston office of the Federal Bureau of Investigation to describe 
water issues in biosecurity. We will explore possible hazards and do a 
tabletop exercise assessing COH ability to respond to an incident where 
the opioid fentanyl is added to the water supply.
    The HHD lab has extensive laboratory testing capacity, including 
the ability to conduct rule-out testing for Category A agents. The 
laboratory has been quick to adopt emergent testing capabilities, 
including for Ebola. Such capacities are developed as part of our 
participation in the Laboratory Response Network.
    COH is extremely aware of the potential risk of bioterrorism and 
has a strong system in place to detect, confirm and respond to such 
incidents. We wanted to let you know that we take our responsibility 
seriously and make maximum use of Federal dollars.
            Sincerely,
                                       Stephen L. Williams,
                               Director, Houston Health Department.
                                       David E. Persse, MD,
                   Public Health Authority, Physician Director EMS.

    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Payne. I want to thank the witnesses for your valuable 
testimony and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Pursuant to committee Rule VII(D), the hearing record will 
be held open for 10 days.
    Without objection, hearing no further business, the 
subcommittee stands adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairman Donald M. Payne, Jr. for Asha M. George
    Question 1a. It is my understanding that DoD Civil Support Teams 
(CST) teams have biodetection capabilities.
    What capabilities do they have and how do they interact with local 
public health?
    Answer. The commission understands that the National Guard Weapons 
of Mass Destruction (WMD)--Civil Support Teams (CSTs) support civil 
authorities when a domestic biological event occurs with identification 
and assessment of the biological hazard. They utilize an Analytical 
Laboratory System (ALS, a standardized mobile laboratory system) to 
conduct analysis of biological samples collected from the affected 
environment. The ALS also prepares, extracts, analyzes, and stores 
environmental samples, using a variety of scientific methods, including 
electrochemical luminescence, gas chromatography, mass spectroscopy, 
infrared spectroscopy, polarized light microscopy, polymerase chain 
reaction, lateral flow immunoassays, high purity germanium gamma 
spectroscopy, and fluorescence microscopy.
    The commission's understanding is that the National Guard CSTs 
interact with the Laboratory Response Network (for biological, 
chemical, and radiological threats)--also known as the LRN. Public 
health laboratories are members of this Network. In addition, the CSTs 
participate in scenario-driven exercises and support large-scale events 
at which the public health community is also present. Given the 
relationship of the National Guard with their Governors, it seems more 
likely that the CSTs would interact with State departments of health 
than they would with local public health personnel.
    While the CST integrates data from a variety of sources to 
determine the extent and severity of a biological hazard, the 
commission understands that CST testing throughput capability is 
limited to a maximum of 8 samples per day, making the use of LRN 
reference laboratories for confirmatory testing critical during events.
    Question 1b. How long does it take them to detect a biological 
agent?
    Answer. The commission does not possess information about how long 
it takes for a CST ALS to identify biological agents, but depending on 
the type of scientific method used, most identifications take from 4-48 
hours. Preliminary, unconfirmed identification takes much less time 
than confirmation, which often requires the growth of microorganisms 
and subsequent use of gold standard laboratory testing that occurs in 
brick-and-mortar laboratories.
    Question 1c. How do they confirm the results? If there is a 
positive hit in their detection system, what actions do they take?
    Answer. The commission has been told that the ALS applies 
standardized analyses to screen potentially hazardous samples and 
prepare them for safe transport by the appropriate civilian law 
enforcement entity to the appropriate LRN reference laboratory for 
confirmatory testing and definitive analysis.
    The commission understands that while the CST focuses on sending 
samples back to the appropriate LRN reference laboratory for 
confirmatory testing to support public health decisions, the CST also 
works closely with the Federal Bureau of Investigation, local law 
enforcement, and public health agencies to support public health and 
safety decisions with on-scene hazard analysis and evaluation of the 
extent of contamination.
    The commission also understand that CSTs may take other actions 
after initial detection of a biological agent vary according to the 
situation. If a CST has been deployed to support a large-scale public 
event, they are part of a larger team (which may include local law 
enforcement, hazardous materials specialists, medical, public health, 
and Federal law enforcement, among others) and would alert incident 
commanders on-site, as well as their own Department of Defense (DOD) 
chain-of-command, to the suspected presence of biological agents. If 
the CST is deployed alone or as part of military activity, they would 
alert their own DOD chain-of-command, which would, in turn, alert 
civilian leaders and organizations.
    Question 1d. What technology does CST use for biodetection? How 
does it compare to BioWatch technology?
    Answer. The commission does not know which technology the CSTs are 
using to detect biological agents. We understand that a wide variety of 
detectors with different capabilities are available to DOD, including 
bio-aerosol monitoring and sampling systems, and devices that trigger 
on-board or remote samplers to collect real-time samples for subsequent 
analysis when a biological threat is present. From what the commission 
has been able to tell (without data), all biodetection systems 
currently in use by the CSTs, other elements of DOD, other parts of the 
Department of Homeland Security, and NASA outperform BioWatch 
technology.
     Questions From Honorable James R. Langevin for Asha M. George
    Question 1. The intelligence community is increasingly concerned 
that the technical knowledge and material needed to develop biological 
agents is becoming more widely available. Will you please discuss how 
advances in synthetic biology and genome editing make it easier to 
develop biological weapons? What trends are you seeing in this area?
    Answer. The commission understands that next-generation 
technologies (e.g., CRISPR-Cas9) have greatly lowered the barrier for 
both good and bad actors to experiment with microorganisms. Today, 
anyone looking to develop or alter biological agents can feasibly do 
so. Directions are readily available for those who know where to look 
for them on the Dark Web, and raw biological materials can be 
conveniently ordered on-line. The prospect of advances in synthetic 
biology being misused becomes even more concerning when considered in 
conjunction with the convergence of the cyber- and biological sciences. 
Bad actors may seek to penetrate sensitive computer systems at research 
institutions or Federal laboratories to obtain data regarding 
biological agents and other disease-causing organisms that they could 
use to develop biological weapons.
    Such developments have increased the number of biological threats 
and made it all the more difficult to detect and identify them. While 
it is difficult to quantify how much the biological threat has expanded 
in recent years, the commission believes that it is a question of when, 
not if, synthetic biology and genome editing are used to create deadly 
pathogens.
    Question 2. As you mentioned in your testimony, the Department of 
Homeland Security is using outdated Department of Defense technology in 
its transition from BioWatch to BD21. Is it your sense that DHS has 
access to the latest DoD technology? Is there another reason DHS is not 
using the latest technology in the testing and implementation of BD21?
    Answer. The commission understands that Department of Homeland 
Security (DHS) BioWatch program has long suffered from a lack of 
effective technology. As currently designed and deployed, the system 
and its underlying technology simply do not work. BioWatch detectors 
cannot accomplish the stated mission of rapidly detecting biological 
threats to the public.
    The commission understands that the BD21 program has obtained older 
Department of Defense (DOD) detection technology (including Government 
off-the-shelf technology) for evaluation, instead of more recent 
technology available to the private sector and other Federal 
departments and agencies. DOD also provided technology for evaluation 
by DHS that failed when DOD fielded the technology itself. Although DOD 
has transitioned some technology to DHS, these candidates have not 
included the latest DOD technology, according to both DHS and DOD. DOD 
is not required to provide all of its biodetection technology with DHS.
    The DHS Office of Countering Weapons of Mass Destruction (where 
responsibility for BioWatch and domestic environmental biodetection 
resides) does not appear to the commission to be adhering to a standard 
Federal acquisition process. DHS has not issued requirements for BD21 
biodetection technology. Industry representatives are at a loss as to 
what, if anything, they should provide when responding to DHS calls for 
biodetection technology. As a result, much of the private sector is not 
providing more advanced biodetection technology to DHS and those 
companies that are providing technology are guessing at requirements 
and providing technology that is inadequate to meet DHS National 
biodetection needs.
    The commission understands that other elements of DHS are employing 
biodetectors that are not part of BioWatch and also do not appear to be 
under consideration by DHS for BD21. The Office of Countering Weapons 
of Mass Destruction has not explained why this is the case, but other 
parts of DHS believe this is due to the office's poor working 
relationship with the Science and Technology Directorate, which was 
responsible for identifying and emplacing some of this biodetection 
technology.
    BioWatch program officials, working in conjunction with the DHS 
Science and Technology Directorate and other Federal partners, should 
identify the most cutting-edge biological detection technology and test 
it for potential use in the program. While DHS has declined to conduct 
a full evaluation of detection technology currently available to 
Federal departments and agencies, as well as the private sector, 
nothing prevents the Department from conducting such an analysis. The 
DHS Office of Countering Weapons of Mass Destruction consistently 
declines to work with the DHS Science and Technology Directorate in 
this regard.
    Given the long-standing issues surrounding the technology used for 
the BioWatch program, Congressional actions, through oversight and 
legislation, may be the best methods by which to ensure that the latest 
technology is considered to replace BioWatch detectors. The commission 
recommended and continues to recommend that Congress and the 
administration terminate the existing BioWatch system and replace it 
with technology that can actually detect biological threats, thereby 
fulfilling Congressional mandate in this regard. If DHS cannot 
accomplish this, the commission recommends that Congress eliminate the 
program altogether.
    Question 3. Researchers must follow security standards when working 
with dangerous pathogens to ensure they are not accessed by people with 
malicious intent. Are researchers required to comply with any 
cybersecurity standards when storing data on dangerous pathogens that 
could have biodefense implications?
    Answer. The commission is not aware of any cybersecurity or 
cyberbiosecurity standards with which civilian researchers that work 
with dangerous pathogens and must store data on dangerous pathogens 
with biodefense implications must comply. The commission believes that 
the DOD is slightly further ahead in this regard, in that the National 
Security Agency has at least developed some mature plans for how 
researchers should store and work with this sort of data in a cyber-
secure fashion.
      Questions From Honorable Lauren Underwood for Asha M. George
    Question 1. Recent reports have suggested that both health 
disinformation and misinformation campaigns have promoted vaccine 
hesitancy amongst the public. I am concerned that these campaigns could 
have long-lasting consequences on public health in this country. Are 
you worried that these campaigns will have a negative impact on 
domestic preparedness in case of a bioterror attack or naturally-
occurring outbreak?
    Answer. The commission supports vaccine uptake by the public as an 
effective approach to prevent, deter, and mitigate large-scale 
biological outbreaks. Although the Nation's biodefense enterprise often 
finds itself focusing on the challenges of research and development for 
new vaccine candidates, producing and stockpiling medical 
countermeasures are only two elements of biodefense. Public engagement 
and education regarding the benefits of vaccination are important 
contributors to public health security. The success of ring vaccination 
and other response efforts depend upon public trust in public health 
and other Governmental institutions. Public disinformation and 
misinformation campaigns about vaccines undermine public confidence in 
vaccine safety and put the health of the Nation at risk.
    Question 2. Credible information is critical to saving lives during 
terrorist attacks. How can State and local health officials work to 
ensure the correct information is disseminated to the public leading up 
to, during, and after a bioterror attack? What can the Federal 
Government do to be an effective partner?
    Answer. Effectively alerting the public depends upon access to 
accurate, actionable information with which to issue alerts. State, 
local, Tribal, and territorial governments should leverage their public 
health laboratories to confirm the identification and presence of 
biological pathogens. Simple, clear messaging to the public regarding 
the extent of the threat posed by an outbreak must follow. In the case 
of a biological terrorism attack, law enforcement must be brought in as 
evidence emerges, so that they can investigate and assist with 
messaging. Locations where needed medical countermeasures are available 
should also be made clear by the Federal Government.
    Unfortunately, the unreliable technology that comprises the Federal 
Government's biological detection system, BioWatch, makes the task of 
collecting useful data for the purposes of informing the public more 
difficult. The Federal Government must replace this technology so that 
State, local, Tribal, and territorial partners can better maintain 
situational awareness of and during an outbreak. The Department of 
Health and Human Services, and Federal law enforcement, can assist with 
coordination and messaging for after a biological attack, and provide 
guidance on the location of supplies and medical countermeasures.
    Question 3. How would you characterize the decision to move the 
health aspects of the Department of Homeland Security, including the 
Office of Health Affairs and Office of the Chief Medical Officer (CMO), 
within the Office of Countering Weapons of Mass Destruction (CWMD)?
    Answer. In 2017, the Department of Homeland Security (DHS) decided 
to reorganize its weapons of mass destruction programs by combining the 
Domestic Nuclear Detection Office with the Office of Health Affairs and 
parts of a few other DHS components. The resulting Office of Countering 
Weapons of Mass Destruction was charged with leading Department 
policies and coordination on matters pertaining to chemical, 
biological, nuclear, and radiological threats. This reorganization also 
saw the transfer of some of the duties from the Office of Health 
Affairs to the Department's Management Directorate, to maintain the 
health of the DHS workforce. Other duties deemed to be more 
operational, including deploying liaisons to component agencies, were 
kept at the Office of Countering Weapons of Mass Destruction. During 
the course of this process, the position of the CMO was subsumed and 
the political position of Assistant Secretary of Health Affairs was 
changed to the Assistant Secretary for Countering Weapons of Mass 
Destruction.
    An argument could be made that the CMO position and occupational 
health matters for the Department's workforce should be located within, 
and addressed by, the DHS Management Directorate. However, current 
statute (6 USC 597) specifically charges the CMO with some of the same 
responsibilities now taken up by the assistant secretary for countering 
weapons of mass destruction.
    Question 4. Do you believe providing the CMO with contracting 
authority will allow for greater operational capabilities?
    Answer. No, the commission does not believe that providing the CMO 
with contracting authority will allow for greater health care and 
public health operational capabilities. The problem is that the 
position of the CMO has been subsumed within the Office of Countering 
Weapons of Mass Destruction.
    Question 5. Can you provide any recommendations for how the 
Department of Homeland Security should structure the CMO within DHS?
    Answer. I believe that the position of the chief medical officer 
(CMO) should be removed from the Office of Countering Weapons of Mass 
Destruction. I believe the CMO should retain responsibilities for 
serving as principal advisor on medical and public health issues to the 
Secretary of Homeland Security, administrator of the Federal Emergency 
Management Agency, and all other officials in the Department of 
Homeland Security (DHS). The Department's CMO should also retain 
responsibility for coordinating medical and public health matters with 
Federal, State, local, Tribal, and territorial governments; and the 
medical, public health, and emergency medical services communities. 
Advisory and coordinating responsibilities should be removed from the 
Office of Countering Weapons of Mass Destruction. Additionally, the 
head of the DHS occupational health office should report to the under 
secretary of the DHS Management Directorate and to the Department's 
CMO.
    I believe that CMOs should be established in all DHS operational 
components. The component CMOs should be managed by their component 
heads and not by the Department's CMO. Component CMOs should provide 
operational medical support to their own components and this 
responsibility should be removed from the Office of Countering Weapons 
of Mass Destruction and the Department's CMO. All component CMOs should 
report to their component heads and to the Department's CMO.
    I do not believe that the Department's CMO needs to be a licensed 
physician, as the position is advisory and policy-oriented, and that 
this position should not only possess knowledge of medicine and public 
health, but they should also have experience with both, beyond the 
possession of academic credentials. The CMOs in each of the components 
should be licensed health care deliverers (i.e., nurses and other 
health care professionals should be considered for these positions) if 
the components believe that licensure is necessary.
  Questions From Chairman Donald M. Payne, Jr. for Jennifer L. Rakeman
    Question 1a. It is my understanding that DoD Civil Support Teams 
(CST) have biodetection capabilities. What capabilities do they have 
and how do they interact with local public health in NYC?
    Answer. We recommend that you contact DoD to discuss their specific 
biodetection capabilities.
    Question 1b. How long does it take them to detect a biological 
agent in NYC?
    Answer. The CST utilizes field testing methods that can detect the 
DNA of biothreat agents within 2 hours. Note that this type of testing 
does not determine viability (i.e. whether the agent is infectious).
    Question 1c. How do they confirm the results? If there is a 
positive hit in their detection system, what actions do they take?
    Answer. The CST would refer samples to the NYC Public Health 
Laboratory (NYC PHL) as the local member of the Laboratory Response 
Network (LRN). Further characterization of biothreat samples would be 
performed by the NYC PHL and/or the CDC and other National laboratories 
such as the FBI's National Bioforensic Analysis Center (NBFAC).
    Question 1d. What technology does CST use for biodetection? How 
does it compare to BioWatch technology?
    Answer. We recommend that you contact DoD to discuss their specific 
biodetection capabilities. BioWatch testing is performed in a 
laboratory setting, including the NYC PHL, and utilizes DoD reagents 
from the critical reagent program to screen samples and reagents from 
the LRN to verify the presence of biothreat agent DNA.
    Question 2. The time between biological agent release and detection 
has been described as taking too long. For NYC, how long is it until we 
have a confirmed bio event with current technology and processes? What 
recommendations would you have to decrease this time?
    Answer. Depending on the frequency of sample collection, the 
current BioWatch system allows for detection of biothreat agent DNA 
between 12 to 36 hours post-release. Note that collection frequency and 
timing are determined locally.
    As discussed during the hearing, no technology currently exists to 
specifically and rapidly detect a wide spectrum of biothreat agents in 
the field. Possible means to reduce detection time include:
  <bullet> Increasing frequency of collections for laboratory-based 
        testing, which would require increased funding to hire 
        additional field and laboratory staff.
  <bullet> Multiplexing, which is the combining of multiple target 
        detection reagents into a single reaction mixture; this is 
        technologically feasible but has not been accomplished to date 
        for all biothreat agents of interest and may require 
        sacrificing sensitivity and/or specificity.
  <bullet> Reducing assay specificity, which may increase the false 
        positive rate.
    Note that there are no technologies for field use that are able to 
CONFIRM detection and/or viability of agents. Confirmatory and 
viability testing must be performed in a laboratory setting.
    Question 3. Could you describe the process by which NYC detects, 
manages, and recovers from a biological attack?
    Answer. NYC uses a multidisciplinary approach to detect, respond 
to, and recover from biothreat agents that includes disease 
surveillance, laboratory testing, emergency management, life safety, 
and law enforcement activities. A biological incident is managed using 
a Unified Command Element that is comprised of multiple NYC agencies. 
Any related criminal investigations are led by NYPD.
    The NYC Health Department is responsible for human and animal 
disease surveillance and epidemiology, mass prophylaxis (including 
antibiotics and vaccines), laboratory testing, public health orders, 
clinical guidance and risk communication, mental health needs 
assessment, and service coordination and environmental mitigation.
    The NYC Health Department will make a final assessment of the 
biological hazard, develop environmental sampling strategies to confirm 
and then characterize the incident, adjust zones of contamination and 
direct all mitigation efforts, including oversight of the remediation 
and clearing spaces for re-occupancy.
    In anticipation of this role, the NYC Health Department, with 
support from the Environmental Protection Agency (EPA), developed the 
NYC Health Department Environmental Response and Remediation Plan for 
Biological Incidents. The Plan called for the establishment of a 
Technical Working Group, now established, consisting of subject-matter 
experts that would provide the NYC Health Department with technical 
expertise during environmental remediation operations.
    Recovery from a widely disseminated biothreat agent attack would 
require a lengthy National effort, involving all levels of government.
    Question 4a. There has been a lot of discussion about using field-
deployed detection approaches for assisting in the detection of 
biological agents. Do we have the technology for mobile laboratories/
handheld field detection equipment?
    Can these technologies have a confirmatory element to it?
    Answer. Any field-based test requires a laboratory-based 
confirmatory test. Current field detection technologies in use are not 
capable of determining the viability of biothreat agents. A rapid 
viability PCR-based test (RV-PCR) specifically for the detection of 
Bacillus anthracis spores has been developed by EPA for laboratory use, 
but it is not widely used or available to LRN public health 
laboratories. This method requires culture of spores and cannot be 
adapted to field use.
    Question 4b. Do you have any concerns about making actionable 
public health decisions based upon hand-held field detection equipment 
or mobile laboratories?
    Answer. Hand-held and mobile laboratory testing for biothreat 
agents that is performed by first responders has previously led to 
misidentification of suspicious substances in NYC. Mobile data 
collection does not yet provide the level of accuracy needed by first 
responders and health officials to adequately identify and respond to 
potential biological emergencies.
    Question 4c. Would your jurisdiction allow the use of such hand-
held devices to confirm a bioterror attack in the field?
    Answer. Currently available hand-held technology is not capable of 
determining viability and therefore is not considered confirmatory.
    Question 4d. Is the technology mature enough and has it been vetted 
to be used for this purpose?
    Answer. Hand-held technology has not been tested in a manner 
similar to clinical assays that have received FDA clearance and CLIA-
waivers and should not be considered for any routine use that may lead 
to high regret decisions such as closure of transit hubs or failure to 
pursue additional laboratory-based testing. Additionally, there are 
serious concerns about the lack of oversight to ensure training and 
competency of first responders using hand-held devices and a lack of 
laboratory quality systems in place in the first responder community 
for maintaining complex detection technology, whether hand-held or in a 
mobile lab.
   Questions From Honorable Lauren Underwood for Jennifer L. Rakeman
    Question 1. Recent reports have suggested that both health 
disinformation and misinformation campaigns have promoted vaccine 
hesitancy amongst the public. I am concerned that these campaigns could 
have long-lasting consequences on public health in this country. Are 
you worried that these campaigns will have a negative impact on 
domestic preparedness in case of a bioterror attack or naturally-
occurring outbreak?
    Answer. The recent measles outbreaks across the United States 
highlight the direct impact that misinformation can have on public 
health. Vaccine hesitancy is fueled by a small but impactful group of 
individuals spreading false information regarding vaccine development, 
purported negative health outcomes and other misinformation that seek 
to undermine the unequivocal science. Such misinformation can foment 
distrust in Government, such as some of the conspiracy theories 
surrounding vaccination, and can make it harder for Government agencies 
to respond to public health events in impacted communities.
    In New York City, we have incredibly strong and versatile systems 
in place to respond to disease outbreaks. During the recent measles 
outbreak, our surveillance system promptly detected the outbreak and 
identified potentially infected individuals; our Public Health 
Laboratory rapidly tested specimens; legal mechanisms enabled the 
declaration of a public health emergency and vaccination mandate, 
exclusion of unvaccinated children from school and day care and 
enforcement against noncompliant schools, day cares and individuals; 
and our outreach and communications staff harnessed existing 
relationships to partner with public and private health care providers, 
community leaders and others to provide accurate information, improve 
infection control, and rapidly vaccinate thousands of New Yorkers.
    In a public health emergency, we may need the public to take rapid 
action to save lives. In order to increase cooperation, we need clear 
and credible messages and trusted communicators at the local, State, 
and Federal level who are able to deliver coordinated information and 
instructions to the public. At the same time, we as a Nation need 
strategies to combat and halt misinformation. We must remain vigilant 
in dispelling misinformation to reduce the risk of another disease 
outbreak and improve the effectiveness of Government response in an 
emergency.
    Question 2. Credible information is critical to saving lives during 
terrorist attacks. How can State and local health officials work to 
ensure the correct information is disseminated to the public leading up 
to, during, and after a bioterror attack? What can the Federal 
Government do to be an effective partner?
    Answer. Critical to a speedy and effective response is developing 
risk communication messaging before an event and sharing at all levels 
of government to assure messages are aligned. This work requires close 
coordination with disease, environmental, and risk communication 
subject-matter experts.
    As stated above, we need clear and credible messages and trusted 
communicators at the local, State, and Federal level who are able to 
deliver coordinated information and instructions to the public. The 
Federal Government and its resources are critical to an effective 
response, but Federal actions must be driven by local information to 
ensure that public messaging and response efforts are consistent and 
coordinated across all levels.
    Question 3. In addition to risks posed by bioterrorists, naturally-
occurring pandemics also represent a threat to homeland security. Could 
you specify the ways in which bioterrorism preparedness dovetails with 
pandemic preparedness, and how we can more effectively leverage 
synergies from investing in each?
    Answer. Local public health departments and their health care 
partners are on the front lines and are the first to detect and respond 
to public health emergencies. Therefore, it is essential that State and 
local health departments, health care partners, and first responders 
plan, exercise, and maintain readiness for ``all-hazards'' in close 
coordination.
    Both public health and health care preparedness capabilities are 
developed for all-hazards and are thus designed to be flexible and 
responsive to the spectrum of public health threats, including a 
bioterrorism incident or a pandemic.
    Federal Public Health Emergency Preparedness (PHEP) funding 
supports jurisdictions to build and maintain public health preparedness 
capabilities, which include:
  <bullet> Maintaining systems to share information between 
        jurisdictions and health disciplines;
  <bullet> Timely and accurate communication of emergency information 
        and guidance to the public;
  <bullet> Standing up and coordinating emergency operations based on 
        National standards; planning for, managing, and dispensing 
        medical countermeasures;
  <bullet> Implementing non-pharmaceutical interventions; conducting 
        public health laboratory testing, as well as public health 
        surveillance and investigatory activities; and
  <bullet> Planning for and building community preparedness and 
        resiliency.
    Likewise, Federal Hospital Preparedness Program (HPP) funding via 
the assistant secretary for preparedness and response (ASPR) supports 
jurisdictions to build health care preparedness capabilities, which 
include:
  <bullet> Effective system-wide coordination between facilities for 
        planning, mitigation of vulnerabilities and preparedness gaps, 
        information sharing, and collective resource management;
  <bullet> Systematic plans and procedures to maintain continuity of 
        health care service delivery; and
  <bullet> Robust and exercised plans to respond to medical surge.
    NYC relies on Federal funding to prepare for, detect, and respond 
to public health emergencies. Over the past 14 years, this funding has 
been significantly reduced--including a 34 percent cut to the Public 
Health Emergency Preparedness (PHEP) program and 39 percent cut to the 
Hospital Preparedness Program (HPP) funding since fiscal year 2005. The 
most drastic impact of these cuts has been the significant reduction in 
the public health preparedness and response workforce in NYC.
    If there are no public health laboratory scientists, 
epidemiologists, environmental health specialists, emergency managers, 
and risk communication experts to build the local alarm system, and 
then hear the alarm and respond when it goes off, we cannot protect the 
health of the American public. This critical workforce needs an 
infrastructure to enable them to do their work--state-of-the-art public 
health laboratories that are flush with instrumentation, reagents, and 
supplies, information technology solutions for the analysis of data, 
and interoperable electronic systems to share that data are all also 
basic necessities for protecting Americans.
    Federal investment and collaboration is critical to ensuring local 
government's ability to stay ahead of emerging threats.
    Questions From Honorable Donald M. Payne, Jr. for Umair A. Shah
    Question 1a. It is my understanding that DoD Civil Support Teams 
(CST) teams have biodetection capabilities. What capabilities do they 
have and how do they interact with local public health in Houston?
    How long does it take them to detect a biological agent in Houston?
    Answer. CST does not have any pre-deployed or continuous monitoring 
capability in Houston/Harris County. CST would respond at the request 
of Houston/Harris County either as part of a special event enhanced 
monitoring or for a chemical, biological, radiological, or nuclear 
(CBRN) emergency.
    Question 1b. How do they confirm the results?
    Answer. This question is better answered from the National Guard 
Civil Support Team spokesman.
    Question 1c. If there is a positive hit in their detection system, 
what actions do they take?
    Answer. This question is better answered from the National Guard 
Civil Support Team spokesman.
    Question 1d. What technology does CST use for biodetection? How 
does it compare to BioWatch technology?
    Answer. This question is better answered from the National Guard 
Civil Support Team spokesman.
    Question 2. The time between biological agent release and detection 
has been described as taking too long. For Houston, how long is it 
until we have a confirmed bio event with current technology and 
processes? What recommendations would you have to decrease this time?
    Answer. Through routine BioWatch environmental monitoring, the time 
from release to lab-confirmed detection is estimated at 12-36 hours. 
Currently, we do not have practical recommendations to decrease this 
time, but it is under study.
    Question 3. Could you describe the process by which Houston 
detects, manages, and recovers from a biological attack?
    Answer. Biological attack detection can be through 5 separate 
pathways: (1) Environmental detection via systems like BioWatch or the 
USPS Bio-Detection System; (2) Human clinical suspect or confirmed 
disease reporting by practitioners and labs; (3) Animal clinical 
suspect or confirmed disease reporting by veterinary providers; (4) 
Human Syndromic Surveillance of Emergency Department chief complaints; 
and (5) overt threats from perpetrators (e.g. letters to media or 
Congressional members in 2001). Regardless of the mechanism of initial 
detection public health would need to assess the threat and determine 
appropriate actions. The management of the threat depends on the agent 
and the interventions needed to protect the public.
    Question 4a. There has been a lot of discussion about using field-
deployed detection approaches for assisting in the detection of 
biological agents. Do we have the technology for mobile laboratories/
hand-held field detection equipment?
    Can these technologies have a confirmatory element to it?
    Answer. In the case of mobile laboratories, yes, if equipped with 
PCR capability.
    Question 4b. Do you have any concerns about making actionable 
public health decisions based upon hand-held field detection equipment 
or mobile laboratories?
    Answer. Yes, hand-held field instruments and mobile laboratories 
each need to provide their specifications and limitations before we can 
assess their creditability for public health decision support. 
Confirmatory tests should be done in a controlled LRN laboratory for 
verification.
    Question 4c. Would your jurisdiction allow the use of such hand-
held devices to confirm a bioterror attack in the field?
    Answer. Currently, we rely on our LRN and BioWatch labs for 
confirmatory testing. Before we can attribute confirmation testing 
capability to a hand-held device we would need to know more about the 
actual specifications of the instrument and its reliability--we are not 
aware of any current hand-held field instruments that have proven 
confirmatory testing capability.
    Question 4d. Is the technology mature enough and has it been vetted 
to be used for this purpose?
    Answer. Testing technology is rapidly emerging. For public health 
to feel comfortable relying on new technology for decision support it 
needs to be vetted with local public health, the user of the 
instruments and the DHS CWMD science and technology group.
      Questions From Honorable Lauren Underwood for Umair A. Shah
    Question 1. Recent reports have suggested that both health 
disinformation and misinformation campaigns have promoted vaccine 
hesitancy amongst the public. I am concerned that these campaigns could 
have long-lasting consequences on public health in this country. Are 
you worried that these campaigns will have a negative impact on 
domestic preparedness in case of a bioterror attack or naturally-
occurring outbreak?
    Answer. Yes. These campaigns erode the very creditability of public 
health and put us in the precarious position of having to re-establish 
trust and confidence and developing an effective communications 
strategy to counter the misinformation.
    Question 2. Credible information is critical to saving lives during 
terrorist attacks. How can State and local health officials work to 
ensure the correct information is disseminated to the public leading up 
to, during, and after a bioterror attack? What can the Federal 
Government do to be an effective partner?
    Answer. Unity of message for public health is our credibility and 
our currency. We coordinate our public information messaging through 
the Joint Information Center. Local, State, and Federal partners all 
contribute, recognizing that all disasters are local. State and Federal 
partners work to support locals.
    Question 3. In addition to risks posed by bioterrorists, naturally-
occurring pandemics also represent a threat to homeland security. Could 
you specify the ways in which bioterrorism preparedness dovetails with 
pandemic preparedness, and how we can more effectively leverage 
synergies from investing in each?
    Answer. Both bioterrorism incidents and pandemics have the 
potential to affect large numbers of people and therefore require 
extensive coordinated large-scale responses.
  <bullet> Preparedness similarities:
    i. Use of Preparedness Cycle
    ii. Education (community & partners)
    iii. Relationship building.
  <bullet> Response to both incidents are similar:
    i. Strong media/social media campaign
    ii. Both require the use of prophylaxis
    iii. Both require local unity of effort to include State and 
            Federal partners.
    Question 4. How would you characterize the decision to move the 
health aspects of the Department of Homeland Security, including the 
Office of Health Affairs and Office of the Chief Medical Officer (CMO), 
within the Office of Countering Weapons of Mass Destruction (CWMD)?
    Answer. CWMD seems to have a primary focus on protecting the 
homeland whereas the OHA focus is more in line with protecting the 
public health and coordinating with the health care response during a 
major emergency. Merging the CMO in the CWMD may not be the most 
effective from a health perspective. The locals do not understand what 
the CMO mission is under the new alignment.
    Question 5. Do you believe providing the CMO with contracting 
authority will allow for greater operational capabilities?
    Answer. Not sure, there has been no communication with the local 
health departments on the subject. As mentioned before with the CWMD 
program, there is a lack of communication.
    Question 6. Can you provide any recommendations for how the 
Department of Homeland Security should structure the CMO within DHS?
    Answer. From the local health department perspective, better define 
and publicize the CMO mission, communication paths, determine lines of 
reporting within DHS and the CMO authority.

                                 <all>
</pre></body></html>
